Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 1 of 40 - Page ID#: 377

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
CENTRAL DIVISION at LEXINGTON
CRIMINAL ACTION NO. 5:15-CR-65-KKC-EBA-1
UNITED STATES OF AMERICA,
V.

PLAINTIFF,

MAGISTRATE JUDGE’S
REPORT AND RECOMMENDATION

CODY LEE HERMAN,

DEFENDANT.
*** *** *** ***
I. INTRODUCTION

The Defendant, Cody Lee Herman, brings this action under to Title 28 United States Code §
2255 seeking to vacate, set aside, or correct his sentence. [R. 59]. Consistent with local practice, this
matter is before the undersigned for a report and recommendation pursuant to 28 U.S.C. § 636(b)(1).
Having considered the record and for the reasons that follow, the Court will recommend that
Herman’s motion be denied.
II. FACTS AND PROCEDURAL HISTORY
Prior to June 22, 2015, a Federal Bureau of Investigation Child Exploitation Task Force Under
Cover Officer (UC) posted an online advertisement on a website known to be frequented by
individuals having a sexual interest in children. [R. 49 at 3]. Cody Lee Herman responded to the
advertisement, indicating that he was in the beginning stages of abusing his six-year-old daughter.
The UC and Herman continued to converse via Kik, an instant messaging application for mobile
devices. The discussion and images shared by Herman during the conversation lead the UC to believe
that Herman’s daughter was in immediate danger and, on June 23, 2015, law enforcement executed
the search warrant at Herman’s residence. Officers confiscated his cellphone where they found
1 of 40

1a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 2 of 40 - Page ID#: 378

images of child pornography. In addition, they were able to determine that the images Herman shared
were of his daughter taken at his home. [R. 49 at 6].
On July 24, 2015, Herman was indicted on one count of production of child pornography, in
violation of 18 U.S.C. 2251(a); one count of distribution of child pornography in violation of 18
U.S.C. 2252(a)(2); and one count of possession of child pornography, in violation of 18 U.S.C.
2252(a)(4)(B). [R. 9]. On November 17, 2015, Herman’s counsel moved for a competency evaluation
to address Herman’s competence to stand trial as well as to address the issue of criminal
responsibility, that is, the mental ability to understand the nature and wrongfulness of his alleged
conduct at the time of the charged offenses. [R. 17]. The Court granted the request and Herman was
sent to the Federal Medical Center in Lexington, Kentucky, for evaluation. [R. 20]. Prior to the
completion of the examination attorney Gore moved to withdraw as counsel for Herman, citing
differences that had arisen between the two. [R. 22; R. 24]. The Court granted the Motion and directed
that replacement counsel be drawn to represent Herman. [R. 25; 30; 31]. Following completion of the
competency examination a hearing was held on April 7, 2016, where H. Wayne Roberts made his
first appearance in the case and was formally appointed to represent Herman. At that hearing Herman
stipulated to his competence to proceed with the case as well as his competency at the time of the
alleged offenses.[R. 30]. The matter was scheduled to proceed to trial on May 16, 2016. [R. 30].
On May 4, 2016, Herman moved to be re-arraigned on Count One of the indictment and, in
granting the motion, the Court set aside the trial date. [R. 33]. Herman was rearraigned and pursuant
to a plea agreement, [R. 36], plead guilty to Count 1 which charged him with production of child
pornography in violation of 18 U.S.C. 2251(a). [R. 35; R. 52 (rearraignment transcript)]. Herman was
sentenced on August 18, 2016, to 300-months imprisonment, 30-years supervised release, and a $100
2 of 40

2a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 3 of 40 - Page ID#: 379

special assessment. [R. 41; R. 43 (sentencing transcript); R. 44 (judgment)]. All remaining counts
were dismissed. [R. 44]. Subsequently, Herman filed an appeal. [R. 45]. However, Roberts, Herman’s
attorney, filed an Anders brief and moved to withdraw as counsel citing no arguable grounds for
appeal existed. [R. 55 at 2]. Based on this motion and its own independent review, the Court of
Appeals granted Roberts’ motion and affirmed the judgment of the District Court. [R. 55 at 7].
Herman has now filed this instant motion to vacate pursuant to 28 U.S.C. § 2255. [R. 59].
Specifically, Herman argues that both Gore and Roberts were ineffective. He claims Gore was
ineffective for: (1) failing to have Herman psychologically evaluated for five months; (2) failing to
properly file paperwork; and (3) withdrawing without cause. [R. 59 at 5]. He also claims Roberts was
ineffective for: (1) being unavailable and failing to notify the Court of the prosecutions threats during
plea negotiations; (2) failing to move for dismissal due to a Speedy-Trial violation under 18 U.S.C.
§ 3161 and the Sixth Amendment; (3) failing to properly file paperwork; (4) failing to mention the
length of his pretrial incarceration to the judge during sentencing; (5) failing to seek a sentencing
reduction under U.S.S.G. § 5K2.0; (6) failing to argue sentencing manipulation by the Government
and undercover officers; and (7) improper use of an Anders Brief. [R. 59 at 6-7]. Herman’s motion
stands ripe for adjudication.
III. STANDARD OF REVIEW
Generally, a prisoner has a statutory right to collaterally attack his conviction and sentence.
Watson v. United States, 165 F.3d 486, 488 (6th Cir. 1999). For a federal prisoner to prevail on such
a claim, he must show that: (1) his conviction resulted from an error of constitutional magnitude; (2)
his sentence was imposed outside the statutory limits; or (3) an error of fact or law occurred that was
so fundamental as to render the entire proceedings invalid. Mallett v. United States, 334 F.3d 491,
3 of 40

3a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 4 of 40 - Page ID#: 380

496–97 (6th Cir. 2003), cert. denied, 540 U.S. 1133 (2004); see also Moss v. United States, 323 F.3d
445, 454 (6th Cir. 2003), cert. denied, 540 U.S. 879 (2003). He must sustain these allegations by a
preponderance of the evidence. McQueen v. United States, 58 F. App’x 73, 76 (6th Cir. 2003)
(unpublished) (“Defendants seeking to set aside their sentences pursuant to 28 U.S.C. § 2255 have
the burden of sustaining their contentions by a preponderance of the evidence.”); Pough v. United
States, 442 F.3d 959, 964 (6th Cir. 2006). If the prisoner alleges a constitutional error, he must
establish by a preponderance of the evidence that the error “had a substantial and injurious effect or
influence on the proceedings.” Watson, 165 F.3d at 488 (citing Brecht v. Abrahamson, 507 U.S. 619,
637–38 (1993); Pough, 442 F.3d at 964. Alternately, if he alleges a non-constitutional error, he must
establish “a fundamental defect which inherently results in a complete miscarriage of justice . . . an
error so egregious that it amounts to a violation of due process.” Watson, 165 F.3d at 488 (citing
United States v. Ferguson, 918 F.2d 627, 630 (6th Cir. 1990).
To prevail on an ineffective assistance of counsel claim under Section 2255, the petitioner
must prove both deficient performance and prejudice. Strickland v. Washington, 466 U.S. 668, 687
(1984). To prove deficient performance, he must show that “counsel’s representation fell below an
objective standard of reasonableness.” Id. at 687–88. In applying this test, reviewing courts must
“indulge a strong presumption that counsel’s conduct falls within the wide range of reasonably
professional assistance . . .” Id. Second, the petitioner must establish prejudice, by showing there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of his proceedings
would have been different. Id. at 694–95. Notably, “[w]hen deciding ineffective-assistance claims,
courts need not address both components of the [deficient performance and prejudice] inquiry ‘if the

4 of 40

4a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 5 of 40 - Page ID#: 381

defendant makes an insufficient showing on one.’” Campbell v. United States, 364 F.3d 727, 730 (6th
Cir. 2004); Strickland, 466 U.S. at 697.
Decisions that “might be considered sound trial strategy” do not constitute ineffective
assistance of counsel. Michel v. Louisiana, 350 U.S. 91, 101 (1955). While trial counsel’s tactical
decisions are not completely immune from Sixth Amendment review, they must be particularly
egregious before they will provide a basis for relief. Martin v. Rose, 744 F.2d 1245, 1249 (6th Cir.
1984). Further, “[a]n error by counsel, even if professionally unreasonable, does not warrant setting
aside the judgment of a criminal proceeding if the error had no effect on the [ultimate] judgment.”
West v. Seabold, 73 F.3d 81, 84 (6th Cir. 1996) (quoting Strickland, 466 U.S. at 691). “Counsel is
constitutionally ineffective only if performance below professional standards caused the defendant to
lose what he otherwise would probably have won.” United States v. Morrow, 977 F.2d 222, 229 (6th
Cir. 1992).
IV. ANALYSIS
This Court is obligated to broadly construe Herman’s pro se Motion to Vacate, evaluating his
arguments according to “less stringent standards than formal pleadings drafted by lawyers.” Haines
v. Kerner, 404 U.S. 519, 520 (1972). In his motion, he claims that both of his attorneys were
ineffective. As addressed below, his arguments provide no grounds for relief.
A. Attorney Gore Ineffective Assistance of Counsel Claims
Herman raises three (3) ineffective assistance of counsel claims against his former attorney,
Gore, in his § 2255 motion. [R. 59 at 5]. He claims Gore was ineffective for: (1) failing to have
Herman psychologically evaluated for five months; (2) failing to properly file paperwork; and (3)
withdrawing without cause. Upon consideration of his arguments, the record now before the Court
5 of 40

5a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 6 of 40 - Page ID#: 382

and based on the analysis below the undersigned will recommend that these three (3) claims be
denied.
1. Failure to have Herman Psychologically or Psychiatrically Evaluated for Five Months.
Herman’s first claim is that Gore was ineffective for not having him psychologically or
psychiatrically evaluated sooner. [R. 59-1 at 4]. Herman was arrested and charged by complaint
following the execution of the search warrant in June 2015 [R. 1]. From that time until counsel
moved for a competency evaluation in November 2015, Herman contends that he waited needlessly
in prison, that he was isolated and suffered from post-traumatic stress disorder (PTSD) and lost 70
pounds. [R. 59-1 at 4]. Essentially, Herman’s claim is that Gore left him to “languish in jail with little
to no psychiatric care.” [R. 59 at 5].
Although Herman argues that counsel was ineffective during this period, he alleges no
particular error or deficiency in counsel’s representation. Rather, the record reflects that following
the filing of a complaint, Gore appeared with Herman for an initial appearance on June 24, 2015; for
preliminary and detention hearings on June 26, 2015; and for an arraignment on charges in the
indictment on July 27, 2015. Then, on September 14, 2015, he moved for a continuance of the trial
citing the need for time to gather medical records regarding Herman’s mental health in order to fully
consider whether a competency evaluation should be conducted. [R. 15]. Then, in order to allow
counsel the opportunity to fully explore the possibility that Herman might not be competent to
proceed or to understand the wrongfulness of his acts at the time of the events charged in the
indictment, the court granted a continuance of the trial. [R. 16]. Counsel moved for a competency
evaluation in November 2015. [R. 17]. Although Herman now claims that counsel was ineffective
for allowing a delay to occur prior to the competency evaluation, Herman fails to support this
6 of 40

6a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 7 of 40 - Page ID#: 383

assertion with any factual evidence of deficient performance. A criminal defendant who is
incompetent may not be tried. Godinez v. Moran, 509 U.S. 389, 396 (1993); Drope v. Missouri, 420
U.S. 162, 171 (1975); United States v. Newton, 389 F.3d 631, 637 (6th Cir. 2004); Coleman v.
Mitchell, 244 F.3d 533, 545 (6th Cir. 2001). The test of competency “‘is whether [the defendant] had
sufficient ability to consult with his lawyers and a reasonable degree of rational and factual
understanding of the proceedings against him.’” United States v. Denkins, 367 F.3d 537, 547 (6th Cir.
2004) (quoting United States v. Ford, 184 F.3d 566, 580 (6th Cir. 1999)); see also Godinez, 509 U.S.
at 396; Harries v. Bell, 417 F.3d 631, 635 (6th Cir. 2005). “[T]he standard . . . for requiring
competency hearings prior to trial or the entry of a guilty plea is not merely whether extant evidence
raises ‘doubt’ as to the defendant’s capacity to stand trial, but rather whether evidence raises a ‘bona
fide doubt’ as to a defendant’s competence.” Warren, 365 F.3d at 533 (quoting Drope, 420 U.S. at
173). In the present case, Herman’s counsel sought a delay of the scheduled trial in order to receive
and evaluate some of Herman’s medical records for the stated purpose of considering whether, as
required by the applicable statute, there was “reasonable cause to believe that [Herman] may presently
be suffering from a mental disease or defect rendering him mentally incompetent…” 18 U.S.C.
4241(a). Herman points to no factual evidence to show that his counsel had earlier knowledge of a
mental disease or defect or other grounds to move for a competency evaluation. Given the nature and
the seriousness of the charges Herman faced, it is reasonable for counsel to investigate the issue of
competence to determine whether there is reasonable cause to request an evaluation. The Court is
mindful that to establish deficient performance, Herman must show that “counsel’s representation
fell below an objective standard of reasonableness,” and this Court must “indulge a strong
presumption that counsel’s conduct falls within the wide range of reasonably professional assistance
7 of 40

7a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 8 of 40 - Page ID#: 384

. . .” Strickland v. Washington, 466 U.S. 668, 687 (1984). Although Herman takes issue with counsel’s
perceived delay in requesting a competency hearing, decisions that “might be considered sound trial
strategy” do not constitute ineffective assistance of counsel. Michel v. Louisiana, 350 U.S. 91, 101
(1955). Herman makes no showing of factual evidence to support his claim deficient performance
due to unreasonable delay in requesting a competency hearing, and the claim should be denied.
2. Failure to Properly File Paperwork.
Herman’s second ineffective assistance of counsel claim arises from counsel’s motion to
continue the trial, filed on September 14, 2015. [R. 15]. The Court record reflects that the document
was filed as a scanned image before being converted to a pdf document. The record further reflects
that the clerk of court placed a notice to counsel into the record stating that prior to filing, documents
should be converted to pdf’s but that no further action was required by counsel. The motion to
continue was then granted by the Court three days later. [R. 18]. Herman argues that this series of
events demonstrates Gore’s lack of knowledge of court rules or court procedures. [R. 59-1]. Even if
the Court assumes that this minor error is evidence of deficient performance, Herman fails to
demonstrate how he suffered prejudice. To establish prejudice in the ineffective assistance of counsel
context, the petitioner must show that there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of his proceedings would have been different. Strickland, 466 U.S.
at 694-95. The record before the court reflects no conceivable prejudice, and Herman fails to
demonstrate prejudice as well. Accordingly, this claim fails to provide Herman any relief.
3. Inappropriate Withdrawal as Counsel Without Cause.
Herman’s final ineffective assistance of counsel claim against Gore is that he “inexplicably
withdrew as counsel,” leaving Herman’s legal defense “twisting without a sense of defense or
8 of 40

8a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 9 of 40 - Page ID#: 385

direction.” [R. 59 at 5; R. 59-1 at 4]. Herman claims that Gore gave no reason for withdrawal, yet the
record indicates that the reason for withdrawal was based on “differences [that had] arisen between
Counsel and Defendant and Counsel believe(d) that it would be better if the Defendant (was)
appointed a different attorney…Counsel believe(d) this request (was) in the best interest of the
Defendant” [R. 24]. To shed further light, Gore has stated by affidavit that Herman made threats
against Gore during a recorded jailhouse telephone conversation between Herman and his wife. [R.
68-1 at 3 (Gore Affidavit)]. Lastly, Gore states that he felt ethically obligated to withdraw as he was
concerned that the threat would subconsciously impact his performance as Herman’s attorney. Id. at
4.
Herman fails to show any facts to demonstrate that Gore’s withdrawal was in any way
improper, or that he suffered prejudice as a result. In accordance with the Court’s local rules, Gore
filed a timely motion, certified that the motion was served on his client, made a showing of good
cause, and the Court consented to his withdrawal. [R. 24; R. 25]. Thus, Gore’s withdrawal was
appropriate. Herman also argues that Gore’s withdrawal somehow left him without guidance. [R. 59
at 5]. However, the record reveals that in the same Order that granting leave to withdraw, the Court
directed the clerk to draw a substitute appointed counsel to represent Herman. [R. 25]. Consequently,
Herman was never without representation at any stage of the proceedings.
Herman has failed to overcome the strong presumption that Gore’s conduct did not fall below
an objective standard of reasonableness. Strickland, 466 U.S. at 687-88. Also, Herman has failed to
prove prejudice because he has failed to show how Gore’s withdrawal was an unprofessional error
and how the result of his proceedings would have been different. Id. at 694-95. Therefore, this claim
should be denied.
9 of 40

9a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 10 of 40 - Page ID#: 386

B. Attorney Roberts Ineffective Assistance of Counsel Claims
Herman raises seven (7) ineffective assistance of counsel claims against his former attorney,
Roberts. [R. 59 at 6-7]. He claims Roberts was ineffective for: (1) being unavailable and failing to
notify the Court of the prosecution’s threats during plea negotiations; (2) failing to move to dismiss
the case due to a Speedy-Trial violation under 18 U.S.C. § 3161 and the Sixth Amendment; (3)
failing to properly file paperwork; (4) failing to mention the length of Herman’s pretrial incarceration
to the judge during sentencing; (5) failing to file for a sentencing reduction under U.S.S.G. § 5K2.0;
(6) failing to argue sentencing manipulation by the Government and undercover officers; and (7)
improper use of an Anders Brief. Upon consideration of his arguments and the record now before the
Court, the undersigned will recommend that these seven (7) claims be denied.
1. Counsels unavailability and threats during plea negotiations.
Herman claims that his attorney, Roberts, was mostly unavailable and only met with him three
(3) times, that their meetings were never face-to-face except for when they discussed his plea
agreement, and that Roberts intimidated him into accepting the plea agreement. [R. 59-1 at 6]. Yet,
the record refutes his accusations as the following . transcript illustrates:
THE COURT:

With Mr. Robert’s help, have you been able to
read and understand the legal documents given
in this case?

THE DEFENDANT: Yes, ma’am.
[R. 52, p. 5].
THE COURT:

Okay, now, Mr. Herman, were you provided with a
copy of the indictment in this case? That’s the list
of charges that the grand jury brought against you.

THE DEFENDANT: Yes, Your Honor.
10 of 40

10a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 11 of 40 - Page ID#: 387

THE COURT:

Have you discussed that indictment with Mr. Roberts?

THE DEFENDANT: Yes, I have, Your Honor.
[R. 52, pp.7-8].
THE COURT:

Mr. Herman, your lawyer has placed in front
of you a document called a plea agreement,
and attached to [is] something called a sealed
supplement. Do you recognize both of these
documents?

THE DEFENDANT:

Yes, Your Honor.

THE COURT:

Have you reviewed them carefully?

THE DEFENDANT:

Yes, I have.

THE COURT:

Do you understand them?

THE DEFENDANT:
THE COURT:
THE DEFENDANT:

Yes, I do.
Did you sign them?
Yes, ma’am.

THE COURT:

Did anybody threaten you or force you or
coerce you into signing those documents?

THE DEFENDANT:

Negative, Your Honor.

THE COURT:

Has anybody threatened you or tried to force
you or coerce you into coming before this
court to enter a plea of guilty here today?

THE DEFENDANT:

Negative, Your Honor.

THE COURT:

Are you willing to plead guilty to count one
because you committed the conduct
described therein?

THE DEFENDANT:

Yes, Your Honor.

[R. 52 at 10, line 2-20].
11 of 40

11a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 12 of 40 - Page ID#: 388

THE COURT:

Mr. Herman, let me direct your attention to
paragraph 3 of your plea agreement.
Paragraph 3 of your plea agreement contains
a statement of facts or a description of events
that the government says that it could prove
and that you admit. Do you see that section?

THE DEFENDANT:

Yes, Your Honor.

THE COURT:

Have you reviewed it carefully?

THE DEFENDANT:

Yes, Your Honor.

THE COURT:

Have you discussed it with your lawyer?

THE DEFENDANT:

Yes, I have, Your Honor.

[R. 52, p. 52, p. 14].
THE COURT:

Have you discussed the Federal Sentencing
Guidelines with Mr. Roberts?

THE DEFENDANT:

I have, Your Honor.

[R. 52, p. 15].
THE COURT:

***
And finally [paragraph 13 of the plea
agreement] says you understand your plea
agreement, that you – your lawyer’s
explained it to you and you have entered into
voluntarily; is that true?

THE DEFENDANT:

Yes, Your Honor.

THE COURT:

Has anybody tried to threaten you or force
you or coerce you into coming before this
court today to enter a plea of guilty?

THE DEFENDANT:

No, Your Honor.

THE COURT:

Now, you have a right to a trial in this case,
and at a trial, the government would have to
prove your guilt beyond a reasonable doubt
to a jury.
12 of 40

12a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 13 of 40 - Page ID#: 389

You would get to see and hear all of the
government’s evidence against you.
You would have your lawyer to
represent you, and he would cross examine
all the government’s evidence and challenge
the introduction of documents or images.
Because the government bears the
burden of proof throughout the entire
proceeding, you wouldn’t have to call any
witnesses or do anything to prove your
witness - - to prove your innocence.
However, if you wanted to call
witnesses, the court would issue summons so
the witnesses could be brought here to testify
for you.
Now, if I accept a plea of guilty from you
here today, none of those things are going to
happen and there is not going to be a trial. Do
you understand?
THE DEFENDANT:
THE COURT:
THE DEFENDANT:

Yes, Your Honor.
Do you want to have a trial?
Negative, Your Honor.

[R. 52 at 18-20].
Herman’s under oath affirmations at his re-arraignment “‘constitute a formidable barrier in
any subsequent collateral proceedings’ because ‘[s]olemn declarations in open court carry a strong
presumption of verity.’” Calvey v. Burt, No. 1-1926, 2018 WL 2015779, at *3 (6th Cir. April 30,
2018) (citing Blackledge v. Allison, 431 U.S. 63, 73-74 (1977)). Herman claims that his counsel was
unavailable, that he did not understand the plea agreement, and that he was coerced into accepting it.
[R. 59-1 at 6]. However, these claims are clearly refuted by the record. [R. 52]. For this reason,
Herman’s argument fails to show the deficient performance or prejudice that is necessary to succeed
on an ineffective assistance of counsel claim. Strickland, 466 U.S. at 687. Herman can neither show
13 of 40

13a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 14 of 40 - Page ID#: 390

that his attorney’s conduct fell below reasonably professional assistance, nor that he suffered any
prejudice. Id. 687-95.
2. Speedy-Trial violation under 18 U.S.C. § 3161 and the Sixth Amendment.
a. Speedy Trial Act
Herman next claims that his right to a Speedy Trial under 18 U.S.C. § 3161 were violated
because his case did not go to trial within the seventy (70) day time frame required by law. He
contends that his counsel was ineffective for failing to seek dismissal of the charges against him, and
that he is now entitled to relief in this action. However, because Herman cannot satisfy the
requirements of Strickland to demonstrate ineffective assistance of counsel, this claim allows him no
relief.
The court will begin its discussion of the Speedy Trial Act and its application to Herman’s
case by making specific reference to several key requirements that must be followed in conducting a
proper calculation under the Act:
First, in this matter Herman was required to be tried within seventy days from the filing of
the indictment or from the date of his first appearance before an officer of the court where the charges
were pending, whichever last occurred. 18 U.S.C. 3161(c)(1). In this case, it means that the seventy
(70) day trial clock did not begin to run until the date of his initial appearance and arraignment on the
charges in the indictment on July 27, 2015. [R. 12].
Second, several motions were filed during the life of the case that resulted in several days
being excluded from the seventy (70) day period. The basis for these excludable days comes from the
language of the statute; one must keep in mind that any “delay resulting from any pretrial motion,
from the filing of the motion through the conclusion of the hearing on, or other prompt disposition
14 of 40

14a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 15 of 40 - Page ID#: 391

of, such motion” is excluded from the seventy (70) day period under the Speedy Trial Clock. 18
U.S.C. 3161(h)(1)(D)(emphasis added).
Third, any delay due to his transportation to and from a facility for a mental competency
evaluation, and the evaluation itself, are not counted in the seventy (70) day period. 18 U.S.C.
3161(h)(1)(A) & (F).
Herman’s indictment was filed on July 23, 2015, and his first appearance on the charges in
the indictment occurred on July 27, 2015. Therefore, the triggering date for speedy trial purposes was
July 27, 2015. So, when Herman appeared for arraignment on July 27, 2015 his time for trial began.
However, several delays did arise and extended the time for his trial to occur as described below:
1.

Clock starts on July 27, 2015 upon Herman’s first appearance on indictment.

2. Forty-eight (48) days run (July 28, 2015 – September 13, 2015)
3.

Clock stops on September 14, 2015 when defense moves for continuance of trial.

4. Clock starts on September 18, 2015 when Court grants continuance.
5.

Nine (9) days run (September 19, 2015 – September 27, 2015)

6.

Clock Stops on September 28, 2015 through December 7, 2015 by virtue of being declared
excludable [R. 16].

7.

November 17, 2015 Motion for Competency evaluation is filed.

8.

April 7, 2016, Competency issue was resolved and the case is scheduled for trial on May 16,
2016. The time between the filing of the motion for competency through and including the
date of the hearing at which the issue was resolved (April 7, 2016) is declared excludable. [R.
30].

9.

Clock starts on April 8, 2016.
15 of 40

15a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 16 of 40 - Page ID#: 392

10. Seventy (70) day clock runs on April 20, 2016.
11. Defendant moves for re-arraignment, having reached a plea agreement with the United States,
on May 4, 2016, thirteen (13) days after running of Speedy Trial Clock. [R. 32].
Having now recognized a violation of the Speedy Trial Clock, the court proceeds with an
analysis of whether counsel’s failure to move for dismissal of the charges against Herman constituted
ineffective assistance of counsel entitling Herman to relief in this action. Upon consideration of the
law governing the issue, as more fully set forth below, the answer is “no”.
A federal prisoner may successfully challenge his sentence under 28 U.S.C. § 2255 by
showing that his sentence was imposed in violation of the Constitution or laws of the United States.
An ineffective assistance of counsel claim may be used to prove such a constitutional violation, even
where the underlying claim cannot otherwise be reviewed for the first time on a § 2255 motion.
Weinberger v. United States, 268 F.3d 346, 351 (6th Cir. 2001). To be successful on an ineffective
assistance counsel claim requires a showing of deficient performance and that the deficient
performance prejudiced the defendant. Strickland, 466 U.S. at 687. Deficient performance requires a
showing that counsel’s representation fell below an objective standard of reasonableness, while
prejudice requires that there is a reasonable probability that but for counsel’s unprofessional errors
the results of the proceeding would have been different. Id. at 694.
The analysis of deficient performance rests on the petitioner showing that counsel made errors
so serious that counsel was not functioning as the counsel guaranteed by the Sixth Amendment.
Strickland, 466 U.S. at 687. However, judicial scrutiny of counsel’s performance must be highly
deferential, and should be guided by a measure of reasonableness under prevailing professional
norms. Id. at 688-89. Counsel need not pursue every possible claim or defense in order to avoid a
16 of 40

16a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 17 of 40 - Page ID#: 393

finding of deficient performance. Sylvester v. United States, 868 F.3d 503, 510 (6th Cir. 2017). Only
when ignored issues are clearly stronger than those presented, will the presumption of effective
assistance of counsel be overcome. Id. (citing Monzo v. Edwards, 281 F.3d 568, 579 (6th Cir. 2002)).
“The Speedy Trial Act was enacted to ‘give effect to a Federal defendant’s right to a speedy
trial under the Sixth Amendment.’” Sylvester v. United States, 868 F.3d at 508 (citing United States
v. Rojas-Contreras, 474 U.S. 231, 238 (1985)). “The Act requires that the relevant charges ‘be
dismissed or otherwise dropped’ in response to any violation of the Act’s provisions.” Sylvester, 868
F.3d at 508 (citing 18 U.S.C. § 3162(a)(2)). Herman claims that Roberts should have challenged his
case on this ground and that more than 154 non-excludable days passed between the time of his arrest
when officers executed a search warrant at his residence until he he was brought to trial. [R. 59-1 at
6-7]. Herman is correct in stating that the Speedy Trial Act requires that a criminal defendant’s trial
commence within 70 days after he is charged or makes an initial appearance, whichever is later. 18
U.S.C. § 3161(c)(1); Bloate v. United States, 559 U.S. 196, 198-199 (2010); United States v.
Williams, 753 F.3d 626, 634-35 (6th Cir. 2014). However, Herman miscalculates the time for trial
under the Speedy Trial Act. Although a technical violation of the Speedy Trial Clock may have
occurred, for Herman to be successful on his claim of ineffective assistance of counsel in this case
requires that he show that Roberts’ failure move to dismiss the indictment was both deficient
performance and prejudicial. However, even if the Court assumes that Roberts was deficient in his
representation, Herman suffered no prejudice as a result and he obtains no relief on this argument.
The facts of this case are like those addressed by the Sixth Circuit in Sylvester v. United States,
868 F.3d 503 (6th Cir. 2017). In Sylvester, the defendant, was convicted of various drug and firearms
offenses. After his conviction and sentence were affirmed on appeal, Sylvester filed a motion to
17 of 40

17a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 18 of 40 - Page ID#: 394

vacate under 18 U.S.C. 2255, arguing that his counsel at trial and on appeal were ineffective for
failing to move for dismissal of the charges against him based on a violation of his right to a speedy
trial under the Speedy Trial Act. Id. at 503. In addressing the motion, the appellate court recognized
that Sylvester’s speedy trial clock exceeded seventy days, and stated that “[h]ad the trial court been
made aware of these violations, it would have been compelled by the Act to dismiss the charges …”
Id. at 509 (citing 18 U.S.C. §§ 3161(c)(1), 3162(a)(2); see also Zedner v. United States, 547 U.S. 489,
507 (2006)). Where, as here, Sylvester’s case was before the Court on a motion for relief under 28
U.S.C. 2255, the Court proceeded to conduct an analysis of Sylvester’s claim of ineffective assistance
of counsel under the familiar standard set forth in Strickland v. Washington, 466 U.S. 668 (1984);
Towns v. Smith, 395 F.3d 251, 258 (6th Cir. 2005). In other words, in a motion for habeas relief,
Sylvester was required to show that counsel’s representation fell below an objective standard of
reasonableness,” and that “there is a reasonable probability that but for counsel’s unprofessional
errors, the result of the proceeding would have been different.” Id. at 510. The Sixth Circuit then held
that because the Speedy Trial Act was violated and the violation would have led to dismissal of the
charges, his counsel rendered deficient performance by not bringing those violations to the attention
of the trial court. However, the Court proceeded to deny Sylvester any relief finding that Sylvester
was not prejudiced by his counsels’ inaction. Id. at 511-512.
Considering this authority, the Court will assume without finding that Roberts was deficient
in not moving for dismissal based on a violation of the Speedy Trial Act after the deadline had run.
Even with this assumption, as illustrated below, Herman’s claim of ineffective assistance of counsel
in this action fails as he can demonstrate no resulting prejudice.

18 of 40

18a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 19 of 40 - Page ID#: 395

In order to prove that Herman suffered prejudice by his counsel’s deficient performance, he
must show by “a reasonable probability that, but for counsel’s errors, the result of the proceeding
would have been different.” Strickland, 466 U.S. at 694. “A reasonable probability is a probability
sufficient to undermine confidence in the outcome.” Id. “Where the defendant ‘has not demonstrated
that, but for his [counsel’s] errors, the district court or [the court of appeals] on direct appeal would
have ordered dismissal of the prosecution with prejudice based on a Speedy Trial Act violation,’ he
has not shown that counsel’s deficient performance ‘changed the result of the proceeding.’” Sylvester,
868 F.3d at 511 (citing McAuliffe v. United States, 514 Fed. Appx. 542, 546 (6th Cir. 2013)(emphasis
added)). Therefore, for Herman to establish prejudice and thus, ineffective assistance of counsel, he
must show a reasonable probability that, but for counsel’s errors, the case against him would have
been dismissed with prejudice.
In the event of a Speedy Trial Act violation, the district court retains discretion to determine
whether to dismiss the case with or without prejudice based on three statutory factors. 18 U.S.C. §
3162(a)(2); United State v. Taylor, 487 U.S. 326, 336-37 (1988). The Act provides that, “[i]n
determining whether to dismiss [a] case with or without prejudice, the court shall consider, among
others, each of the following factors: [i] the seriousness of the offense; [ii] the facts and circumstances
of the case which led to the dismissal; and [iii] the impact of a re-prosecution on the administration
of this chapter and on the administration of justice.” 18 U.S.C. § 3162(a)(2); Miller, 799 F.3d at 1004;
Sylvester, 868 F.3d at 512.
As for the first factor, the crimes Herman faced are very serious offenses, as evidenced by
Herman’s 300-month sentence, favoring dismissal without prejudice. [R. 44]; See United States v.
Robinson, 389 F.3d 582, 588 (6th Cir. 2004) (“Given the length of the sentence, the offenses charged
19 of 40

19a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 20 of 40 - Page ID#: 396

against Robinson were serious and favored dismissal without prejudice.”); United States v. Koerber,
813 F.3d 1262, 1276 & n. 19 (10th Cir. 2016) (seriousness of offense may be assessed “by considering
the length of sentence Congress has adopted”). Herman was indicted on one count of production of
child pornography, in violation of 18 U.S.C. 2251(a); one count of distribution of child pornography
in violation of 18 U.S.C. 2252(a)(2); and one count of possession of child pornography, in violation
of 18 U.S.C. 2252(a)(4)(B). [R. 9]. This charged conduct involved his own six-year-old daughter;
and the fact that his crimes brought possible penalties as serious as a sentence of not less than 15years nor more than 30 years of imprisonment, show the crimes to be very serious. Thus, analysis of
the first factor weighs heavily in favor of a finding that any dismissal of the charges against Herman
would have been without prejudice.
As for the second factor, the Court considers the culpability of the conduct that led to the delay.
Koerber, 813 F.3d at 1277. In this case, there is no evidence of intentional dilatory conduct, bad faith,
or a pattern of prosecutorial neglect resulting in a violation of Herman’s right to a speedy trial. In
fact, the record reveals no evidence of delay occasioned by the government. As the case proceeded,
the speedy trial clock was stopped only in response to motions filed on Herman’s behalf/ Thus,
Herman “expressly participated in the delay” when he requested a continuance of the trial, [R. 15],
and when he requested a competency evaluation, [R. 17]. See,. White, 985 F.2d at 275. The final delay
occurred when attorney Roberts made his first appearance as counsel for Herman on April 7, 2016,
the date of his competency hearing, when only thirteen (13) days remained on the clock. Simply, that
means that Roberts’ choice was to insist on going to trial prior to the deadline’s expiration which
would require him to prepare the entire case for trial in less than two weeks or accept a later trial date.
A defendant has the role of spotting a speedy trial violation, and the violation should be brought to
20 of 40

20a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 21 of 40 - Page ID#: 397

the court’s attention prior to trial or entry of a guilty plea to prevent undue defense gamesmanship.
Zedner v. United States, 547 U.S. 489, 502 (2006). Clearly, forcing Roberts to fashion a defense and
proceed to trial in a case new to him, having only just met his client and addressed the competency
issue would raise the issue of whether, in doing so, he would be forced into circumstances resulting
in ineffective assistance of counsel for not seeking a delay or continuance. In addition, counsel should
not be expected to lie in wait those thirteen days for the deadline to pass and then spring a motion of
dismissal on the Court on April 21, 2016. United States v. Miller, No. 05-143, 2018 WL 6308786, *9
(D.D.C. Dec. 3, 2018) (“trial counsel should understand the court’s frustration at an attorney agreeing
to a date in the future, silently lying in wait for a STA violation, and then filing a motion to dismiss
on the STA violation”).

Therefore, the circumstances which lead to the delay were not

intentional nor prejudicial to Herman, and this factor weighs heavily in favor of a finding that any
dismissal of the charges would have been without prejudice.
Finally, the third factor to be considered is the impact of a re-prosecution on the administration
of justice. Regarding the third and final factor, “[t]he main considerations that courts have taken into
account ... are whether the defendant suffered actual prejudice as a result of the delay, and whether
the government engaged in prosecutorial misconduct that must be deterred to ensure compliance with
the Act.” Id. at 512 (citing Howard, 218 F.3d at 562). Herman presents no argument or evidence of
any prejudice, or other way in which he would suffer in his defense if he were re-indicted and again
faced the possibility of trial on the same offenses. In addition, he presents no evidence of prosecutorial
misconduct that must be deterred to ensure compliance with the Speedy Trial Act. Id. at 513. Because
“‘there is no evidence here of prosecutorial misconduct that must be deterred to ensure compliance
with the Act,’ the third factor supports dismissal without prejudice.” Sylvester, 868 F.3d at 513 (citing
21 of 40

21a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 22 of 40 - Page ID#: 398

United States v. Pierce, 17 F.3d 146, 149 (6th Cir. 1994)). The absence of prejudice to Herman
resulting from the delay “strongly weighs in favor of dismissal without prejudice.” Id. (quoting United
States v. Ferguson, 565 F.Supp.2d 32, 48 (D.D.C. 2008)); (citing Taylor, 487 U.S. at 341).
For these reasons, Herman is entitled to no relief on this claim as he “has not shown that the
charges against him in the underlying prosecution would have been dismissed with prejudice,”
therefore he “has not shown that the results of the proceeding would have been different but for the
deficient performance.” Sylvester, 868 F.3d at 513 (citing McAuliffe, 514 Fed. Appx. at 546).
b. Right to a Speedy Trial
In addition to his Speedy Trial Act claim, Herman also alleges a violation of his Sixth
Amendment right to a speedy trial. [R. 59 at 6]. The Sixth Amendment to the United States
Constitution guarantees that “[i]n all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial.” U.S. Const. amend VI. “‘Although the passage of the [Speedy Trial] Act
was in part an attempt by Congress to quantify the Sixth Amendment right to a speedy trial, the
legislation does not purport to be coextensive with that amendment.’” United States v. Howard, 218
F.3d 556, 563-64 (6th Cir. 2000) (citing United States v. Gonzalez, 671 F.2d 441, 443 (11th Cir.
1982); see also 18 U.S.C. § 3173 (“No provision of this chapter shall be interpreted as a bar to any
claim of denial of speedy trial as required by amendment VI of the Constitution.”); United States v.
Rice, 746 F.3d 1074, 1081 (D.C. Cir. 2014) (“The absence of a Speedy Trial Act violation does not
ipso facto defeat a Sixth Amendment speedy trial claim.”). The two rights are related but distinct, so
that a violation of one may be found without a violation of the other. United States v. White, 443 F.3d
582, 588 (7th Cir. 2006) (citing United States v. Koller, 956 F.2d 1408, 1413 (7th Cir. 1992)). While
“the government’s compliance with the Speedy Trial Act does not bar future Sixth Amendment
22 of 40

22a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 23 of 40 - Page ID#: 399

speedy trial provision claims, [the Sixth Circuit has] previously held that ‘it will be an unusual case
in which the time limits of the Speedy Trial Act have been met but the Sixth Amendment right to a
speedy trial has been violated.’” United States v. O’Dell, 247 F.3d 655, 666-67 (6th Cir. 2001) (citing
United States v. DeJesus, 887 F.2d 114, 116 (6th Cir. 1989)); see also United States v. Bieganowski,
313 F.3d 264, 284 (5th Cir. 2002); United States v. Nance, 666 F.2d 353, 360 (9th Cir. 1982); United
States v. Schlei, 122 F.3d 944, 986 (11th Cir. 1997). While “defeat on a Speedy Trial Act claim does
not bar a similar Sixth Amendment claim, it will be persuasive in considering the merits of the
constitutional claim.” O’Dell, 247 F.3d at 673 (citing DeJesus, 887 F.2d at 116 n. 1 (declining to
consider a Sixth Amendment speedy trial claim after resolving a Speedy Trial Act claim against
defendant)). Thus, determining compliance with the Act is a question of statutory interpretation, while
the Sixth Amendment inquiry is to be guided by the Supreme Court's decision in Barker v. Wingo,
407 U.S. 514 (1972). United States v. Gonzalez, 671 F.2d 441, 442-43 (11th Cir. 1982).
“In Barker v. Wingo, the Supreme Court identified four factors that courts should consider
when determining whether a defendant's Sixth Amendment right has been violated: (1) the “[l]ength
of the delay”; (2) “the reason for the delay”; (3) “the defendant's assertion of his right”; and (4)
“prejudice to the defendant.” 407 U.S. 514, 530 (1972). The first factor is a threshold requirement.
United States v. Williams, 753 F.3d 626, 632 (6th Cir. 2014) (citing Wingo, 407 U.S. at 530). “[I]f
the length of the delay is not uncommonly long, then the judicial examination ends.” United States v.
Bass, 460 F.3d 830, 836 (6th Cir. 2006). Conversely, a delay of one year or more is considered
“presumptively prejudicial” and, as such, satisfies the first Barker factor, triggering examination of
the remaining three. Id. However, “to trigger a speedy trial analysis, an accused must allege that the
interval between accusation and trial has crossed the threshold dividing ordinary from ‘presumptively
23 of 40

23a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 24 of 40 - Page ID#: 400

prejudicial’ delay….” United State v. Williams, 683 Fed. Appx. 376, 383 (6th Cir. 2017) (citing
Doggett v. United States, 505 U.S. 647, 651-52 (1992)). “‘In calculating the length of the delay, only
those periods of delay attributable to the government or the court are relevant to the defendant’s
constitutional claim.’” Williams, 683 Fed. Appx. at 383 (citing United States v. Howard, 218 F.3d
556, 564 (6th Cir. 2000)); see also United States v. White, 985 F.2d 271, 275 (6th Cir. 1993)
(excluding from the time counted towards a Sixth Amendment violation the time during which the
defendant “expressly participated in the delay.”). “‘The length of delay is measured from the earlier
of the date of indictment or arrest to the defendant’s trial.’” Id. (citing United States v. Bass, 460 F.3d
830, 836 (6th Cir. 2006).
As all the delays in this case were caused by Herman, he cannot now claim a violation of his
constitutional rights based on his own actions. Unlike the Speedy Trial Act, this calculation begins,
here, at the day of Herman’s arrest which was June 23, 2015. Williams, 683 Fed. Appx. at 383. The
entry of his plea stops the clock, and this occurred on May 4, 2016. This amounts to three hundred
and sixteen (316) days. Herman “expressly participated in the delay” when he requested a
continuance of the trial, [R. 15], and when he requested a competency evaluation, [R. 17], which
results in an exclusion of one hundred and ninety-two (192) days. White, 985 F.2d at 275. Thus, one
hundred and twenty-four (124) days remain attributable to the trial process. If the optimal trial process
and normal procedure would take seventy (70) days, then fifty-four (54) days is the maximum time
he can claim as a delay. These same fifty-four (54) days include the time between arrest and
indictment and the time for his second attorney, Roberts, to prepare for trial and/or negotiate the plea
agreement. Therefore, as the time of any delay was less than one-and-one-half-month this is clearly
not a violation of 6th Amendment right to a speedy trial. See Howard, 218 F.3d at 564 (a delay of
24 of 40

24a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 25 of 40 - Page ID#: 401

five months is not per se excessive under the Sixth Amendment); White, 985 F.2d at 275 (finding that
a six-and-one-half-month delay was not excessive); United States v. Holyfield, 802 F.2d 846 (6th Cir.
1986) (holding that a five-month delay was constitutionally permissible). Therefore, because “. . .
the length of the delay is not uncommonly long, then the judicial examination ends.” United States v.
Bass, 460 F.3d 830, 836 (6th Cir. 2006). Thus, his 6th Amendment right to a speedy trial claim fails
and will not provide him with any relief.
3. Failure to Properly File Paperwork.
Like Gore, Herman also asserts that Roberts failed to properly file documents with the Court.
His argument is focused on one filing by Roberts on May 4, 2016, when Roberts filed a motion for
re-arraignment, but did not attach a proposed order, as required by Local Criminal Rule 12.1(f). [R.
32]. The clerk notation in the record informed Roberts that “within seven calendar day (he was to)
prepare a pleading entitled ‘Notice of Filing’ (with a certificate of service), file the Notice using the
event ‘Notice of Filing,’ attach the proposed order, and create a link to the related docket entry.” See
[Docket Sheet at 5/5/16]. On that same day, Roberts addressed the issue and filed the proposed order.
[R. 34]. The Court granted the motion for re-arraignment on May 5th, 2016. [R. 33]. Even if the Court
assumed that this minor error is evidence of deficient performance, Herman fails to demonstrate how
he suffered prejudice. To establish prejudice in the ineffective assistance of counsel context, Herman
must show that there is a reasonable probability that, but for counsel’s unprofessional errors, the result
of his proceedings would have been different. Strickland, 466 U.S. at 694-95. The record before the
court reflects no conceivable prejudice as he was granted the relief he sought, and this claim fails to
provide Herman any relief.
4. Failure to notify the judge of the lengthy pretrial incarceration during sentencing.
25 of 40

25a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 26 of 40 - Page ID#: 402

Herman next argues that his counsel, Roberts, should have mentioned his “lengthy
incarceration” to the judge during his sentencing and that this should have been a factor considered
by the judge in imposing his sentence. [R. 59-1 at 8]. It appears that Herman is asking the Court to
consider his time served in the sentencing calculation, however the sentencing Court does not perform
this calculation. O’Bryan v. Terris, No. 17-2025, 2018 WL 4191326, at * 1 (6th Cir. Mar. 1, 2018)
(citing United States v. Wilson, 503 U.S. 329, 334-35 (1992)). Rather, it is the Bureau of Prisons who
calculates and is authorized to grant a defendant credit for time served prior to sentencing under 18
U.S.C. § 3585; Id.
Moreover, the time served in custody prior to sentencing is not a factor for a court to consider
in sentencing. Courts in imposing a sentence consider the factors found in 18 U.S.C. § 3553(a). United
States v. Vowell, 516 F.3d 503, 512 (6th Cir. 2008). A sentence is substantively reasonable if it is
proportionate to the seriousness of the circumstances of the offense and offender, and sufficient but
not greater than necessary to comply with the purposes of 18 U.S.C. § 3553(a). United States v.
Graham, 564 Fed. Appx. 196, 198 (6th Cir. 2014). A properly calculated within-guidelines sentence
will be afforded a rebuttable presumption of reasonableness on appeal because it is one of the §
3553(a) factors and because the guidelines purport to take into consideration most, if not all, the other
§ 3553(a) factors. United States v. Williams, 436 F.3d 706, 708 (6th Cir. 2006); Gall v. United States,
552 U.S. 38, 49 (2007).
Herman has failed to show that his pretrial incarceration should have been considered by the
judge in determining his sentence. Moreover, Herman does not claim that the Court’s guideline range
was improperly calculated. The Court in imposing sentence adequately explained the chosen sentence
and granted a downward variance from the guideline calculation. [R. 43 at 11-16]; Gall, 552 U.S. at
26 of 40

26a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 27 of 40 - Page ID#: 403

50. Therefore, Herman has failed to show that he was prejudiced and that the results of his
proceedings would have been different, because pretrial incarceration is not a factor a Court considers
in imposing sentence and any credit earned against his sentence by his pretrial incarceration is to be
calculated by the Bureau of Prisons and not the Court in calculating sentence. Strickland, 466 U.S. at
694-95.
5. Failure to argue sentencing reduction under U.S.S.G. § 5K2.0.
Next, Herman claims that Roberts should have argued for a sentencing departure pursuant to
U.S.S.G. § 5K2.0, based on the psychological evaluation report stating that he is not a pedophile and
that he suffers from an unspecified trauma disorder. [R. 59-1 at 8]. He argues that had this been done,
it would have mitigated in favor of a reduced sentence. However, this argument will not provide
Herman with any relief in this action.
First, Herman argues that at sentencing counsel was ineffective for failing to assert that
Herman was not a pedophile. However, a review of the competency report leads to no such
conclusion, and his argument is therefore not factually supported. The competency evaluation report
in this case indicates, in the section entitled “Clinical Formulation and Diagnostic Impression:” “Rule
out Pedophilia”. Although Herman is not diagnosed as a pedophile in the report the evaluator
commented that: “As pending legal circumstances are likely to inhibit self-disclosure regarding
deviant sexual interest, further assessment, post adjudication, of Mr. Herman’s sexual history, sexual
interest, and past behaviors within the context of a sex offender treatment program is recommended
to determine the level and degree of Mr. Herman’s problematic sexual behavior and interests and
whether a diagnosis of a Pedophilic Disorder is warranted.” [R. 49, p. 28(emphasis in original)]. Thus,
contrary to Herman’s belief there was no diagnosis ruling out the possibility that he suffered from a
27 of 40

27a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 28 of 40 - Page ID#: 404

Pedophilic Disorder. Rather, the evaluator merely commented on the need to conduct a full
assessment, post adjudication, by and through his participation in a sex offender treatment program.
Therefore, Herman’s argument that counsel was deficient at sentencing for failing to argue that
Herman was not a pedophile is not factually supported and provides Herman with no relief.
Next, Herman asserts that counsel should have argued that he suffers from an unspecified
trauma disorder. Again, this argument allows Herman no relief. At his sentencing both sides
addressed his military service and that he was not the same when he returned home. [R. 43 at 7, line
14-21; R. 43 at 9, line 3-5]. Therefore, the argument which Herman would have liked the Court to
consider was in fact brought before the Court and considered by the Court. In addition, the record
does not reflect the existence of a condition warranting departure under the guidelines.
Section 5K2.0 allows courts to sentence outside the guideline range if the court finds, “that
there exists an aggravating or mitigating circumstance of a kind, or to a degree, not adequately taken
into consideration by the Sentencing Commission in formulating the guidelines that should result in
a sentence different from that described.” 18 U.S.C. § 3553(b); U.S.S.G. § 5K2.0. Herman plead
guilty to 18 U.S.C. § 2251(a), persuading, inducing, enticing, and coercing a minor to engage in
sexually explicit conduct for the purpose of producing a visual depiction of that conduct. [R. 36 at 1].
According to that statute, “any individual who violates, or attempts or conspires to violate, this section
shall be fined under this title and imprisoned not less than 15 years nor more than 30 years….” 18
U.S.C. § 2251(e). In this case, the applicable guideline range for Mr. Herman was 360 months.
Herman was sentenced to three hundred (300) months or twenty-five years. [R. 43 at 12, line 24].
Thus, the Court did deviate from the maximum which he could have received and departed downward
to 300 months. As Roberts based his arguments for a minimum sentence at sentencing on valid
28 of 40

28a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 29 of 40 - Page ID#: 405

reasons including Herman’s military service, the repercussions from that service, and Robert’s
request for (15) fifteen years, the lowest possible statutory incarceration time, Herman has failed to
show that Robert’s actions were deficient. Strickland, 466 U.S. at 687-88. In short, his argument is
again factually unsupported and in fact contradicted by the record.
“Counsel is not required to be prescient or to raise futile arguments on behalf of his client.
Counsel’s strategy of pressing stronger arguments at sentencing was reasonable at the time and cannot
be considered to be constitutionally deficient performance.” Garcia v. United States, No. 99-1134,
2000 WL 145358, at *2 (6th Cir. Feb. 2, 2000); Krist v. Foltz, 804 F.2d 944, 946 (6th Cir. 1986).
6. Failure to argue sentencing manipulation by the Government and undercover officer(s).
Herman next argues that Roberts failed to object to government sponsored entrapment and
sentencing manipulation which allegedly resulted in his prosecution and a longer sentence being
imposed.[R.59-1 at 8-9].
Specifically, Herman states that “the government’s undercover agent suggested and induce(d)
[him] to take pictures on [June 22, 2015].” [R. 59-1 at 8]. That he “had never taken pictures prior to
[June 22, 2015].” [Id.]. Also, that “(b)ut for the government agent’s outrageous conduct, [he] would
not have taken pictures nor thought of the type of pictures to take. The government encouraged a
sex act (a two (2) level increase). The government also categorized that as a sadist, masochistic,
violent act (a four (4) level increase). This resulted in a sentence enhancement against [him]…[that
he] should not have received…due to the government’s outrageous leading conduct.” [Id. at 9].
Herman puts forth these arguments in the context of an ineffective assistance of counsel
claims. Essentially, he claims that his attorney should have argued entrapment and/or manipulation
and objected to the enhancements before he plead guilty. Turning first to the issue of alleged
29 of 40

29a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 30 of 40 - Page ID#: 406

entrapment, and counsel’s alleged ineffective assistance for failing to raise the issue, in order to show
ineffective assistance of counsel Herman will have to show that an entrapment defense would have
had merit during his prosecution. Halvorsen v. White, 746 Fed. Appx. 489, 500 (6th Cir. 2018) (citing
Greer v. Mitchell, 264 F.3d 663, 676 (6th Cir. 2001)).
“An entrapment defense has two elements: (1) government inducement of the crime, and (2)
a lack of predisposition on the part of the defendant to engage in the criminal conduct.” United State
v. Demmler, 655 F.3d 451, 456 (6th Cir. 2011). “At the most basic level, defendants pleading
entrapment, or one of its derivative theories, argue that they should escape, or receive a lesser,
punishment because the government’s conduct induced them to commit the crime.” Hammadi, 737
F.3d at 1048. “Predisposition, ‘the principal element in the defense of entrapment,’ focuses upon
whether the defendant was an ‘unwary innocent’ or, instead, an ‘unwary criminal’ who readily availed
himself of the opportunity to perpetrate the crime. Mathews v. United States, 485 U.S. 58, 63 (1988)
(citing United States v. Russell, 411 U.S. 423, 433 (1973); Sherman v. United States, 356 U.S. 369,
372 (1958)). Therefore, Herman must show that the Government induced him to commit the crime
and that he was not predisposed to engage in this type of criminal conduct. Nonetheless, Herman has
failed to provide proof of either.
First, as discussed above, Herman entered into his plea agreement knowingly, voluntarily,
intelligently, and without threat or coercion. [R. 52 at 15]. Paragraph 3 of the plea agreement contains
a statement of facts or a description of events that the government says that it could prove, and under
oath Herman admitted that he was willing to plead guilty because he had committed the conduct
described therein. [R. 52 at 10]. Paragraph 3(c) of the plea agreement specifically states that “(t)he
Defendant persuaded, induced, enticed and coerced the minor victim to take the pictures when she
30 of 40

30a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 31 of 40 - Page ID#: 407

was naked.” [R. 36 at 2]. Paragraph 3(d) of the plea agreement specifically states that “(t)he Defendant
knew that the visual depictions he created would be transmitted using a means or facility of interstate
commerce, including by computer.” [Id.]. Herman’s under oath affirmations of this conduct
“‘constitute a formidable barrier in any subsequent collateral proceedings’ because ‘[s]olemn
declarations in open court carry a strong presumption of verity.’” Burt, 2018 WL 2015779, at *3
(citing Blackledge, 431 U.S. at 73-74). Also, the two-level and four-level enhancements were
included in the plea agreement, specifically in paragraph 4(e) and (f). [R. 36 at 3]. Herman was also
asked, at his rearraignment, whether he reviewed the plea agreement, whether he understood it, and
also whether he discussed the plea agreement with his attorney. [R. 52 at 10]. Herman answered in
the affirmative as to all three questions. Thus, Herman admitted to his wrongful actions, the accuracy
of the depiction of his conduct in the plea agreement, and he was aware of the sentencing
enhancements to be applied against him.
Second, the record reflects that Herman’s own statements to the Under-Cover Officer (UC)
show that he was not induced, by the Government’s conduct, into committing a crime he otherwise
would not have committed. Hammadi, 737 F.3d at 1048. Herman also fails to state what Government
conduct was so reprehensible that it would constitute grounds for an entrapment defense. It important
to note that “only when the Government’s deception actually implants the criminal design in the mind
of the defendant [will] the defense of entrapment come into play.” United States v. Russell, 411 U.S.
423, 436 (1973). The Government’s first action was to place the advertisement on the website known
to be frequented by individuals having a sexual interest in children. [R. 49 at 3]. While obviously a
fake advertisement, it was posted so that anyone who wanted could respond. It was not targeted at
Herman. He made the decision to seek out whomever had posted the advertisement. This is not an
31 of 40

31a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 32 of 40 - Page ID#: 408

inducement, this is offering an opportunity for the commission of an offense and it will not defeat a
prosecution. Russell, 411 U.S. at 436. Upon seeking out whomever was on the other side of the
advertisement, Herman began the conversation with the UC. The Transcript reads as follows:
Def. Herman:

Hi

UC:

Hi asl where u find me?

Def. Herman:
Def. Herman:

Sex forum
Pervdads/family

UC:

You a dad?

Def. Herman:
Def. Herman:

27m.
yes

UC:
UC:

Same here 9 yo girl and active you?
Location? DC Va here

Def. Herman:
Def. Herman:

6 yr old beginning
SC

UC:

Hot how far have you gone

Def. Herman:
Def. Herman:

Pics rubbing and helping with showers
U got pics to trade?

UC:

Mmmm nice, yes is yours there now?

Def. Herman:

Yes

[R. 1-1 at 3-4] (emphasis added).
As can be seen from the transcript of the conversation, it is Herman not the Government that
started and directed the conversation. The Government asks Herman questions to determine
Herman’s identity, who his victim was, what Herman had done to his victim, and to establish that the
victim was there with him in real time. [Id.]. Most importantly to Herman’s claim, that he would not
have taken pictures nor thought of the type of pictures to take, is the fact that he states he took pictures
32 of 40

32a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 33 of 40 - Page ID#: 409

in the past. [R. 1-1 at 4] (“Def: all within the last week,” to purportedly show that the picture he sent
were all taken within the last week). Therefore, Herman could not have been induced by the
Government, because he had already taken some of the pictures prior to the conversation with the UC
starting, and Herman was the one who wanted to trade those pictures.
Finally, Herman was predisposed to committing this crime. Not only did Herman start the
conversation, but he was also the first to ask about pictures and the possibility of trading those
pictures, as can be seen above in the transcript. After Herman opened the door to discussing trading
pictures, the UC asked if Herman had “ever taken any special ones (pictures) in the past” and if he
could see. [R. 1-1 at 4]. Herman responded by saying “(n)udes? Yeah u?,” which shows that Herman
had already taken explicit pictures of his daughter in the past. His request to trade pictures evidences
a strong likelihood that he could have already traded these pictures prior to this conversation. Herman
was not an otherwise law-abiding citizen, he had taken pictures of his daughter in the past and clearly
intended to trade those pictures for other illegal pictures of children with the UC. See United States
v. Hibbler, 159 F.3d 233, 237-38 (6th Cir. 1998). Thus, Herman was already predisposed to commit
this crime and the Government merely provided him the opportunity. Demmler, 655 F.3d at 457;
United States v. Al-Cholan, 610 F.3d 945, 951 (6th Cir. 2010) (predisposition to travel across state
lines to molest children can be shown even without specific evidence of inclination to commit every
element of the precise crime of conviction, because it is not necessary that the past conduct be
precisely the same as that for which the defendant is being prosecuted).
Therefore, Herman’s counsel was not ineffective in failing to raise the issue of entrapment.
Given the analysis above, an entrapment defense would have been unsuccessful either prior to
Herman entering the plea agreement or on appeal, and this claim provides him no relief.
33 of 40

33a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 34 of 40 - Page ID#: 410

Turning next to his claim of sentencing manipulation, it should be noted that claims of
sentencing entrapment and sentencing manipulation have never been recognized by the Sixth Circuit
as valid defenses. Hammadi, 737 F.3d at 1048 (6th Cir. 2013) (citing United States v. Guest, 564
F.3d 777, 781 (6th Cir. 2009)). Thus, his attorney was not ineffective for raising those defenses which
are not recognized. Yet, Herman is correct that a few other Circuits do recognize some or a part of
these defenses. See United States v. Beltran, 571 F.3d 1013, 1021 n. 1 (10th Cir. 2009). Even if the
Sixth Circuit recognized sentencing entrapment or sentencing manipulation as a defense, both would
be inapplicable here. “Under either theory, the defendant bears the burden of proof as to his lack of
predisposition and to the outrageousness of government conduct.” Hammadi, 737 F.3d at 1048 (citing
United States v. Jernigan, 59 Fed. Appx. 647, 650 (6th Cir. 2003)). As explained above, Herman has
not shown any outrageous government conduct. His only basis for entrapment or manipulation is the
government’s interaction with him regarding the production and transmitting of the explicit pictures
of his daughter. The Government may have deceived him into thinking he was conversing with an
equally guilty criminal, but the Government did not induce him to produce and transmit those photos.
The mere fact of deceit will not “defeat a prosecution for there are circumstances when the use of
deceit is the only practicable law enforcement technique available.” Russell, 411 U.S. 423, 435-36
(1973) (citing Lewis v. United States, 385 U.S. 206, 208-09 (1966)). Herman was also already clearly
predisposed to produce and transmit the pictures, because he already had them in his possession and
he was the one who asked to trade. See [R. 1-1 at 3]; See also Hammadi, 737 F.3d at 1049 (“the ready
commission of the criminal act amply demonstrates the defendant’s predisposition.”). Moreover, the
advertisement was not created for Herman specifically, but it was Herman who sought it out. Herman

34 of 40

34a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 35 of 40 - Page ID#: 411

has failed to show how sentencing entrapment and/or manipulation would be relevant in this situation
and he has failed to prove the substantive defense of entrapment.
Herman has failed to prove that Roberts was deficient in his performance or that he was
prejudiced. “Where ineffective assistance at sentencing is asserted, prejudice is established if the
movant demonstrates that his sentence was increased by the deficient performance of his attorney.”
Spencer v. Booker, 254 Fed. Appx. 520, 525 (6th Cir. 2007) (citing Glover v. United States, 531 U.S.
198, 200 (2001)). “If ‘one is left with pure speculation on whether the outcome of…the penalty phase
could have been any different,’ there has been an insufficient showing of prejudice.” Booker, 254
Fed. Appx. at 525 (quoting Baze v. Parker, 371 F.3d 310, 322 (6th Cir. 2004)). Here, not only does
the Sixth Circuit not recognize sentencing enhancement and manipulation as valid defenses or reasons
for departure, but Herman has failed to provide the proof that either applies in this case. Additionally,
Herman’s sentence was properly calculated under the Federal Sentencing Guidelines and the §
2G2.1(b)(2)(A) two-level increase and § 2G2.1(b)(4) four-level increase were properly included.
Thus, any argument to the contrary would have been futile and pointless. As the outcome of the
penalty phase could not have been any different, Herman has failed to show that he was prejudiced,
and this claim fails to provide him any relief.
7. Improper use of Anders Brief.
Herman next argues that Roberts was ineffective for improperly filing an Anders brief on
appeal. [R. 59 at 6; R. 59-1 at 6]. The United States Supreme Court in Anders v. California, 386 U.S.
738 (1967), held that a criminal appellant may not be denied representation on appeal based on
appointed counsel’s bare assertion that he or she is of the opinion that there is no merit to the appeal.
Penson v. Ohio, 488 U.S. 75, 80 (1988). However, the Court recognized that in some circumstances
35 of 40

35a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 36 of 40 - Page ID#: 412

counsel may withdraw without denying the indigent appellant fair representation provided that certain
safeguards are observed. These safeguards, now colloquially known as the Anders procedures, require
counsel to first conduct a conscientious examination of the case. If the attorney is then of the opinion
that the case is wholly frivolous, counsel may so advise the court and request permission to withdraw.
The request must, however, be accompanied by a brief referring to anything in the record that might
arguably support the appeal. Once the appellate court receives this brief, it must then itself conduct a
full examination of all the proceedings to decide whether the case is wholly frivolous. Only after this
separate inquiry, and only after the appellate court finds no nonfrivolous issue for appeal, may the
court proceed to consider the appeal on the merits without the assistance of counsel. Penson, 488 U.S.
at 80 (citing Anders, 386 U.S. at 744).
To begin, Herman waived any substantive claim under the Speedy Trial Act when he entered
a guilty plea in the underlying action. 18 U.S.C. § 3162. Thus, a Speedy Trial Act violation was not
properly preserved and could not have been raised except as a claim for ineffective assistance of
counsel. So, the convoluted inquiry is: was counsel on appeal ineffective for failing to raise a claim
that he (counsel) was ineffective in representing Herman during the underlying prosecution? For the
reasons that follow, the answer, again, is “no”. The proper standard for evaluating appellate
counsel’s ineffectiveness in neglecting to file a merits brief rather filing an Anders brief is that
enunciated in Strickland v. Washington, 466 U.S. 668 (1984). Smith v. Robbins, 528 U.S. 259, 285
(2000). Herman “must first show that his counsel was objectively unreasonable in failing to find
arguable issues to appeal–that is, that counsel unreasonably failed to discover nonfrivolous issues and
to file a merits brief raising them.” Robbins, 528 U.S. at 285. If this can be shown, then he still has
the burden of demonstrating prejudice by showing a reasonable probability that but for his counsel’s
36 of 40

36a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 37 of 40 - Page ID#: 413

unreasonable failure to file a merits brief he would have prevailed on his appeal. Id. (citing Strickland,
466 U.S. at 694). In this case none of Herman’s claims would have allowed a meritorious argument
on appeal. However, having found above that Herman’s right to a timely trial under the Speedy Trial
Act was violated, it is necessary to illustrate that his counsel was not ineffective for failing to raise a
Speedy Trial Act violation before the Sixth Circuit Court of Appeals.
“As a general rule, a defendant may not raise ineffective-assistance-of-counsel claims for the
first time on direct appeal, since there has not been an opportunity to develop and include in the record
evidence bearing on the merits of the allegations.” United States v. Warman, 578 F.3d 320, 348 (6th
Cir. 2009); United States v. Garba, 307 Fed. Appx. 698, 702 (3rd Cir. 2009). Thus, “ineffective
assistance of counsel claims are best brought on collateral review, so that the parties can develop an
adequate record” of the issues. Warman, 578 F.3d at 348; See Garba, 307 Fed. Appx. 698 (“[T]he
practice of this court [is] to defer the issue of ineffectiveness of trial counsel to a collateral attack.”);
“When, however, the record is adequate to assess the merits of defendant’s allegations,” then some
courts will consider claims of ineffective assistance of counsel on direct appeal. United States v.
Wunder, 919 F.2d 34, 37 (6th Cir. 1990). For the record to be adequate it must show why counsel
undertook the disputed action. See United States v. August, 984 F.2d 705, 711 (6th Cir. 1992); See
also United States v. Crowe, 291 F.3d 884, 886 (6th Cir. 2002) (citing United States v. Earle, No. 973171, 1998 WL 465350, at *3 (6th Cir. July 28, 1998) (unpublished table decision) (“The record is
not adequate for review on direct appeal if facts about the impugned attorney’s decision-making
process and strategy must be determined to resolve the claims of inadequate representation.”)).
Here the Sixth Circuit “granted counsel’s motion to withdraw because no arguable grounds
for appeal exist[ed].” [R. 55 at 3]. However, the Sixth Circuit did state that “(t)he claims that Herman
37 of 40

37a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 38 of 40 - Page ID#: 414

raises in his response appear to be primarily issues of the ineffective assistance of counsel. To the
extent that Herman wishes to raise such claims, they are more appropriately raised on collateral
review because the record on direct appeal is often insufficient to assess the merits of the claim.” [R.
55 at 6]. Furthermore, following the United State Supreme Court’s decision in Massaro, an
ineffective assistance of counsel claim does not have to be brought on direct appeal to preserve the
claim for a collateral attack. 538 U.S. at 509. The Court stated that in most cases a motion brought
under § 2255 is preferable to direct appeal for deciding claims of ineffective assistance. Id. at 504.
“The trial record may contain no evidence of alleged errors of omission, much less the reasons
underlying them.” Id. at 505.
Because claims of ineffective assistance of counsel are not generally entertained on appeal,
counsel was not deficient in failing to raise such a claim on direct appeal. Moreover, even assuming
that the record was sufficiently developed to allow a claim of ineffective assistance of counsel to be
analyzed on direct appeal, for the reasons discussed previously the claim was without merit as
Herman suffered no prejudice from any violation of the Speedy Trial Act. Thus, his counsel was not
ineffective on appeal for filing an Anders brief.
In conclusion, because all of Herman’s ineffective assistance counsel claims fail to provide
him any relief, and because the Sixth Circuit found there was no arguable issue to be raised on appeal,
he has failed to show that his counsel was objectively unreasonable in failing to find arguable issues
to appeal. See Sharp v. Warden, Pickaway Correctional Inst., No. 1:10-CV-831, 2011 WL 6960850,
*18 (S.D. Ohio Dec. 12, 2011). Therefore, this claim fails to provide Herman any relief.

38 of 40

38a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 39 of 40 - Page ID#: 415

V. MOTION FOR HEARING
Pursuant to Rule 4, Rules Governing § 2255 Proceedings, a motion to vacate may be
summarily denied if it plainly appears from the face of the motion and any annexed exhibits that the
movant is not entitled to relief. Smith v. United States, 348 F.3d 545, 550 (6th Cir. 2003); Baker v.
United States, 781 F.2d 85, 92 (6th Cir. 1986). In the alternative, “When a factual dispute arises in a
§ 2255 proceeding, an evidentiary hearing is required ‘to determine the truth of the petitioner's
claims.’” Ray v. United States, 721 F.3d 758, 761 (quoting Valentine v. United States, 488 F.3d 325,
333 (6th Cir. 2007)). The Sixth Circuit has observed that a § 2255 petitioner’s “burden ‘for
establishing an entitlement to an evidentiary hearing is relatively light.’” Smith, 348 F.3d at 551
(quoting Turner v. United States, 183 F.3d 474, 477 (6th Cir. 1999)). However, no hearing is required
if the movant’s allegations cannot be accepted as true because they are contradicted by the record,
are inherently incredible, or are conclusions rather than statements of facts. Arredondo v. United
States, 178 F.3d 778, 782 (6th Cir. 1999); Peavy v. United States, 31 F.3d 1341, 1345 (6th Cir. 1994).
In this case, the undersigned will recommend Herman’s claims, found in his Motion to Vacate,
be denied. Furthermore, there is no factual dispute necessitating an evidentiary hearing. Even though
Herman’s burden for establishing a right to an evidentiary hearing is light, it cannot be met because
his allegation(s) clearly contradict the record and are conclusion rather than statements of fact. For
these reasons, an evidentiary hearing is not necessary.

VI. CONCLUSION
For the reasons set forth above, it is RECOMMENDED that Herman’s Motion to Vacate [R.
59] be DENIED.
39 of 40

39a

Case: 5:15-cr-00065-KKC-EBA Doc #: 77 Filed: 03/29/19 Page: 40 of 40 - Page ID#: 416

The parties are directed to 28 U.S.C. § 636(b)(1) for a review of appeal rights governing this
Report and Recommendation. Particularized objections to this Report and Recommendation must be
filed within fourteen (14) days from the date of service thereof or further appeal is waived. United
States v. Campbell, 261 F.3d 628, 632 (6th Cir. 2001); Thomas v. Ann, 728 F.2d 813, 815 (6th Cir.
1984). General objections or objections that require a judge’s interpretation are insufficient to
preserve the right to appeal. Cowherd v. Million, 380 F.3d 909, 912 (6th Cir. 2004); Miller v. Currie,
50 F.3d 373, 380 (6th Cir. 1995). A party may file a response to another party’s objections within
fourteen (14) days after being served with a copy thereof. 28 U.S.C. § 636(b)(1)(C); Fed. R.
Civ. P. 72(b).
This the 29th day of March, 2019.

40 of 40

40a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 1 of 28 - Page ID#: 505

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
CENTRAL DIVISION
LEXINGTON
UNITED STATES OF AMERICA,

CRIMINAL ACTION NO. 5:15-65-KKC

Plaintiff,
V.

OPINION AND ORDER

CODY LEE HERMAN,
Defendant.
*** *** ***
Defendant Cody Herman has moved to vacate, set aside, or correct his sentence under
28 U.S.C. § 2255. (DE 59.) Pursuant to local practice, the motion was referred to United
States Magistrate Judge Edward B. Atkins for review under 28 U.S.C. § 636(b)(1)(B). This
matter is now before the Court on the Magistrate’s Report and Recommendation (“R&R”) (DE
77) and Defendant’s objections (DE 85). Having conducted a de novo review of the portions of
the R&R to which Defendant objects, the Court will adopt the Magistrate’s recommended
disposition and DENY Defendant’s motion for § 2255 relief. Moreover, the Court REFUSES
to issue a certificate of appealability because the Defendant has not made a substantial
showing of the denial of any constitutional right.
BACKGROUND
This case began when a Federal Bureau of Investigation Child Exploitation Task
Force Under Cover Officer (UC) posted an online advertisement on a website known to be
frequented by individuals having a sexual interest in children.

Defendant Herman

responded to the advertisement. His response indicated that he was in the beginning stages
of abusing his daughter, who was six years old at the time of the offense. The UC and
Defendant maintained a conversation on Kik, an instant messaging application for mobile
1

41a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 2 of 28 - Page ID#: 506

devices. The statements made and images shared by the Defendant during the conversation
led the UC to believe that the Defendant’s daughter was in immediate danger. On June 23,
2015, law enforcement executed a search warrant at Defendant’s residence. Officers seized
Defendant’s cellphone and discovered images of child pornography that he had taken of his
daughter inside his home. (See DE 77 at 1-3.)
Defendant was indicted on one count of production of child pornography, in violation
of 18 U.S.C. § 2251(a); one count of distribution of child pornography, in violation of §
2252(a)(2); and one count of possession of child pornography, in violation of § 2252(a)(4)(B).
(DE 9.)
Defendant pleaded guilty to production of child pornography and was sentenced to
300 months imprisonment, 30 years of supervised release, and a $100 special assessment.
(DE 36 and 44.) All remaining counts were dismissed.
Defendant filed an appeal with the Sixth Circuit Court of Appeals.

However,

Defendant’s attorney, H. Wayne Roberts, filed an Anders brief and moved to withdraw as
counsel stating that no arguable grounds for appeal existed.

The Sixth Circuit, after

reviewing the Anders brief and conducting its own independent review, affirmed the
judgment of this Court. (DE 55.)
Defendant filed a motion to vacate his sentence pursuant to 28 U.S.C. § 2255. (DE
59.) His motion asserts ineffective assistance of counsel claims against his initial appointed
attorney, Charles Gore, and his second appointed attorney, Roberts. Defendant’s petition
asserts that Gore was ineffective for (1) failing to have Defendant psychologically evaluated
for five months; (2) failing to properly file paperwork; and (3) withdrawing without cause.
Defendant’s petition asserts that Roberts was ineffective for (1) being unavailable and failing
to notify the Court of the prosecution’s threats during plea negotiations; (2) failing to file a
motion to dismiss for violations of the Speedy Trial Act and the Sixth Amendment; (3) failing
2

42a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 3 of 28 - Page ID#: 507

to properly file paperwork; (4) failing to mention the length of his pretrial incarceration to
the judge during sentencing; (5) failing to seek a sentencing reduction under U.S.S.G. §
5K2.0; (6) failing to argue sentencing manipulation by the Government and undercover
officers; and (7) improper use of an Anders Brief. (See DE 59.)
The Magistrate issued a R&R recommending that Defendant’s § 2255 petition be
denied on all grounds. (DE 77.) Defendant has filed objections to the Magistrate’s R&R. (DE
85.) Defendant’s objections only address the ineffective assistance of counsel claim against
Roberts for failing to file a motion to dismiss for violations of the Speedy Trial Act and the
Sixth Amendment. The Defendant does not object to the Magistrate’s recommendations
regarding any other claims.
ANALYSIS
I.

Standard of Review.
This Court performs a de novo review of those portions of the Magistrate’s R&R to

which Defendant has objected. See 28 U.S.C. § 636(b). The Court, however, does not perform
a de novo review of the R&R’s unobjected-to findings as such is not required. Thomas v. Arn,
474 U.S. 140, 150 (1985).
The Court further recognizes its obligation to review Defendant’s objections under a
more lenient standard than the one applied to attorneys because he is proceeding pro se. See
Franklin v. Rose, 765 F.2d 82, 84-85 (6th Cir. 1985). Under this more lenient construction,
some of Defendant’s objections are sufficiently definite to trigger the Court's obligation to
conduct a de novo review. See 28 U.S.C. § 636(b)(1)(c). The Court has satisfied its duty,
reviewing the entire record. For the following reasons, Defendant’s objections (DE 85) will
be OVERRULED and his motion for relief under § 2255 (DE 59) will be DENIED. After

3

43a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 4 of 28 - Page ID#: 508

reviewing Defendant’s petition (DE 59), the R&R (DE 77), and the applicable law, the Court
ADOPTS the R&R.
II.

Remaining Ineffective Assistance of Counsel Claim.
Defendant has filed objections to the Magistrate’s recommendation regarding only one

of his claims for ineffective assistance of counsel. (See DE 85.) Defendant objects to the
Magistrate’s recommendation that Defendant’s ineffective assistance of counsel claim
predicated on Roberts’ failure to file a motion to dismiss for violations of the Speedy Trial Act
and Sixth Amendment be denied. Pursuant to 28 U.S.C. § 636(b), the Court conducts a de
novo review of this claim.
In his petition, Defendant claims that his right to a Speedy Trial under 18 U.S.C. §
3161 and the Sixth Amendment were violated. (DE 59 at 6.) The Magistrate thoroughly
addressed Defendant’s claims and found that his claim for ineffective assistance of counsel
on this ground was meritless.1 The Magistrate first determined that there was a technical
violation of the Speedy Trial Act.

However, the Magistrate—assuming that Roberts’

performance was deficient under Strickland without explicitly finding such—found that
there was no resulting prejudice. Second, the Magistrate determined that there was no
violation of Defendant’s right to a speedy trial under the Sixth Amendment. As such, the
Magistrate recommended that the Defendant’s claim for ineffective assistance of counsel on
this basis be denied. (DE 77 at 14-25.)
Defendant raises several objections to the Magistrate’s calculation of time under the
Speedy Trial Act and recommendation regarding this claim for ineffective assistance of

Defendant has no direct claim for a violation of the Speedy Trial Act because he entered into a guilty plea
to Count One of his Indictment. See 18 U.S.C. § 3162 (“Failure of the defendant to move for dismissal prior
to trial or entry of a plea of guilty or nolo contendere shall constitute a waiver of the right to dismissal under
this section.”) Accordingly, the Court only considers the violation of the Speedy Trial Act as it relates to
Defendant’s claim for ineffective assistance of counsel.
1

4

44a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 5 of 28 - Page ID#: 509

counsel. (DE 85.) First, he asserts that the time excluded at docket entry 16 is improper.
Second, Defendant appears to assert that he was in the custody of the Attorney General
undergoing his psychological and psychiatric examinations for longer than permitted by
statute. He further contends that there was no reason for the Court to grant an extension to
the Warden of the Federal Medical Center (“FMC”), Lexington to complete those
examinations. Third, he asserts that the R&R improperly states that Roberts’ first
appearance as counsel was on April 7, 2016. Instead, Defendant contends that Roberts was
appointed December 29, 2015. Finally, Defendant argues—in response to the Magistrate’s
finding that there was no Sixth Amendment violation—that the delays in his case prejudiced
him in various ways that should be considered by the Court. The Court addresses each of
these objections below.
A. Two-prong Test for Establishing a Claim of Ineffective Assistance of
Counsel.
To prevail on a claim of ineffective assistance of counsel, Defendant must satisfy the
two-pronged test of Strickland v. Washington, 466 U.S. 668 (1984). Under this test, the
Defendant must first establish that counsel’s performance was deficient and then show that
the deficient performance prejudiced the defense. Strickland, 466 U.S. at 687. Regarding the
deficiency prong, Defendant “must identify specific ‘acts or omissions [that] were outside the
wide range of professionally competent assistance.’” Borch v. United States, 47 F.3d 1167 (6th
Cir. 1995) (quoting Id. at 690). There is a “strong presumption that counsel’s conduct falls
within the wide range of reasonable professional assistance…” Strickland, 466 U.S. at 689.
To show prejudice, Defendant must establish a “reasonable probability that, but for counsel's
unprofessional errors, the result of the proceeding would have been different.” Id. at 694. The
Sixth Circuit has interpreted Strickland as allowing a finding of ineffective assistance of
counsel “only if [counsel's] performance below professional standards caused the defendant
5

45a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 6 of 28 - Page ID#: 510

to lose what he otherwise would probably have won.” United States v. Morrow, 977 F.2d 222,
229 (6th Cir. 1992). “When deciding ineffective-assistance claims, courts need not address
both components of the [deficient performance and prejudice] inquiry ‘if the defendant makes
an insufficient showing on one.’” Campbell v. United States, 364 F.3d 727, 730 (6th Cir. 2004)
(quoting Strickland, 466 U.S. at 697)).
Here, Defendant makes a claim for ineffective assistance of counsel on the basis that
Roberts should have filed a motion to dismiss the indictment for violations of the Speedy
Trial Act and Sixth Amendment. This claim for ineffective assistance of counsel fails because
as Defendant’s claim relates to a violation of the Speedy Trial Act, he has not shown prejudice
under Strickland, and as Defendant’s claim relates to a violation of his Sixth Amendment
rights, he has not shown any deficient performance.
1. Ineffective Assistance of Counsel Claim as it Relates to a Violation of the
Speedy Trial Act.
Defendant makes a claim for ineffective assistance of counsel based on a violation of
the Speedy Trial Act. Defendant contends that his counsel was ineffective for failing to raise
a violation of the Speedy Trial Act to this Court. (DE 59-1 at 7.)
The Court finds below—assuming that Roberts’ performance was deficient under
Strickland—that Defendant has not shown any prejudice.

Accordingly, his ineffective

assistance of counsel claim based on a violation of the Speedy Trial Act is meritless.
a. Timeline of Defendant’s Case Under the Speedy Trial Act.
Under the Speedy Trial Act, a defendant is required to be tried within seventy days
from the filing of an indictment or from the date of his first appearance before an officer of
the court where the charges are pending, whichever occurred last. 18 U.S.C. § 3161(c)(1). The
statute further provides, however, that certain periods of delay “shall be excluded” in
computing the seventy-day time limitation. Id. § 3161(h). Excluded delays include “delay
6

46a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 7 of 28 - Page ID#: 511

resulting from any proceeding, including any examinations, to determine the mental
competency or physical capacity of the defendant[,]” Id. § 3161(h)(1)(A); “delay resulting from
any pretrial motion, from the filing of the motion through the conclusion of the hearing on,
or other prompt disposition of, such motion[,]” Id. § 3161(h)(1)(D); and “[a]ny period of delay
resulting from a continuance granted by any judge … if the judge granted such continuance
on the basis of his findings that the ends of justice served by taking such action outweigh the
best interest of the public and the defendant in a speedy trial.” Id. § 3161(h)(7)(A).
As the Magistrate correctly stated in his R&R:
Herman’s indictment was filed on July 23, 2015, and his first appearance on
the charges in the indictment occurred on July 27, 2015. Therefore, the
triggering date for speedy trial purposes was July 27, 2015. So, when Herman
appeared for arraignment on July 27, 2015[,] his time [under the Speedy Trial
Act] began. However, several delays did arise and extended the time for his
trial to occur as described below:
1. Clock starts on July 27, 2015 upon Herman’s first appearance on [the]
indictment.
2. Forty-eight (48) days run (July 28, 2015 – September 13, 2015)[.]
3. Clock stops on September 14, 2015 when defense moves for
continuance of trial.
4. Clock starts on September 18, 2015 when Court grants continuance.
5. Nine (9) days run (September 19, 2015 – September 27, 2015)[.]
6. Clock Stops on September 28, 2015 through December 7, 2015 by
virtue of being declared excludable[.] [R. 16].
7. November 17, 2015 Motion for Competency evaluation is filed.
8. April 7, 2016, Competency issue was resolved[,] and the case is
scheduled for trial on May 16, 2016. The time between the filing of the
motion for competency through and including the date of the hearing at
which the issue was resolved (April 7, 2016) is declared excludable. [R.
30].
9. Clock starts on April 8, 2016.
10. Seventy (70) day clock runs on April 20, 2016.
7

47a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 8 of 28 - Page ID#: 512

11. Defendant moves for re-arraignment, having reached a plea
agreement with the United States, on May 4, 2016, thirteen (13) days
after [the] running of [the] Speedy Trial Clock. [R. 32].
(DE 77 at 15-16.)
Defendant raises two objections directly related to the Magistrate’s calculation of time
under the Speedy Trial Act. First, he asserts that the time excluded at docket entry 16 is
improper. Second, Defendant appears to assert that he was in the custody of the Attorney
General undergoing his psychological and psychiatric examinations for longer than permitted
by statute. He further contends that there was no reason for the Court to grant an extension
to the Warden of FMC, Lexington to complete those examinations. (DE 85 at 3-4.) Although
these objections are ultimately immaterial to the Court’s determination that the Defendant
has not shown prejudice under Strickland, the Court addresses them to lay foundation and
clarify the posture of the case.
i.

The Time Excluded by Docket Entry 16 was
Appropriately Excluded Under the Speedy Trial Act.

Defendant alleges in his objections that the time excluded at docket entry 16—
September 28, 2015 through December 7, 2015—is improper because “no where in that whole
space are the terms ends of justice met [sic].” Defendant additionally alleges that there is no
legal or reasonable explanation for why that time should be excluded. (DE 85 at 3.)
Docket entry 16 grants the Defendant’s own motion to continue. On September 14,
2015, Defendant moved to continue the September 28, 2015 trial date. (DE 15.) That motion
stated as follows:
Counsel for the Defendant has been attempting to gather documentation
regarding the mental health of the Defendant in order to make a determination
whether to request a full evaluation. At this point the Defendant would
request a continuance of two months to afford him ample opportunity to obtain

8

48a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 9 of 28 - Page ID#: 513

the records. This request is being made in an effort to determine the best way
to proceed with the representation of the Defendant.
(DE 15 at 1.) The Court granted the motion and set a new trial date for December 7,
2015. (DE 16.) Based on the Defendant’s representations to the Court in his motion to
continue, the Court found that “pursuant to 18 U.S.C. § 3161(h)(1)(A) and 18 U.S.C. §
3161(h)(7)(A)[,] the time between the prior trial date and the new trial date should be
excluded in computing the time that the trial of this matter must commence under the Speedy
Trial Act.” The Court additionally found that, pursuant to § 3161(h)(7)(A), “[f]ailure to grant
this continuance would deny defense counsel the reasonable time necessary for effective
preparation and, accordingly, the end[s] of justice served by [the] continuance outweigh the
best interest of the public and the defendant in a speedy trial.” (DE 16 at 1.)
As stated above, § 3161(h)(1)(A) provides that any period of “delay resulting from any
proceeding, including any examinations, to determine the mental competency or physical
capacity of the defendant” shall be excluded. 18 U.S.C. § 3161(h)(1)(A). Here, the basis of
Defendant’s motion to continue was the need for time to determine whether a full mental
health evaluation would benefit the Defendant. Accordingly, the time was appropriately
excluded under § 3161(h)(1)(A).

The time was also excludable under § 3161(h)(7)(A). As

stated above, § 3161(h)(7)(A) provides that any period of “delay resulting from a continuance
granted by any judge … if the judge granted such continuance on the basis of his findings
that the ends of justice served by taking such action outweigh the best interest of the public
and the defendant in a speedy trial.” Id. § 3161(h)(7)(A).

Based on Defendant’s

representations in his motion to continue (DE 15), the Court appropriately made “ends of
justice” findings on the record in docket entry 16. Those findings were based on the Court’s
determination that a failure to grant such continuance would deny the counsel for the
Defendant the reasonable time necessary for effective preparation. (See DE 16.) See also id.
9

49a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 10 of 28 - Page ID#:
514

§ 3161(h)(7)(B) (The factors which a judge shall consider in determining whether to grant a
continuance include “[w]hether the failure to grant such a continuance … would deny counsel
for the defendant … the reasonable time necessary for effective preparation, taking into
account the exercise of due diligence.”). The time between September 28, 2015 and December
7, 2015 was appropriately excluded pursuant to § 3161(h). Accordingly, Defendant’s objection
to the Magistrate’s R&R on this basis is overruled.
ii.

The Time Excluded to Conduct the Defendant’s
Requested Psychological and Psychiatric Evaluations
was Appropriately Excluded Under the Speedy Trial Act.

Regarding Defendant’s second objection to the Magistrate’s calculation of time under
the Speedy Trial Act, Defendant appears to assert that he was in the custody of the Attorney
General undergoing his psychological and psychiatric examinations for longer than permitted
by statute. He further contends that there was no reason for the Court to grant an extension
to the Warden of FMC, Lexington to complete those examinations. (DE 85 at 3-4.)
On November 17, 2015, Defendant filed a motion requesting pretrial psychological
and psychiatric examinations pursuant to 18 U.S.C. §§ 4241, 4242(a), and Federal Rule of
Criminal Procedure 12.2.

(DE 17.)

On November 30, 2015, the Court granted the

Defendant’s motion and ordered that the Defendant be committed to the custody of the
Attorney General for a reasonable period of time not to exceed forty-five (45) days, unless
otherwise ordered by the Court. (DE 20.) Subsequent to the Court’s order, the Court received
a letter from the Warden of FMC, Lexington requesting a 30-day extension to complete the
evaluation of the Defendant. (DE 21-1.) In that letter, the Warden stated that although
Defendant was ordered to undergo an evaluation on November 30, 2015, he did not arrive at
FMC, Lexington until December 7, 2015. The Warden further stated:
due to the large number of evaluations received at this facility and in order to
allow our clinical staff sufficient time to conduct a thorough examination, we
are respectfully requesting an extension which would allow us an additional
10

50a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 11 of 28 - Page ID#:
515

30 days to complete the evaluation. Under such a time frame, the evaluation
would be completed by February 19, 2016, and a report would be available to
the Court by March 18, 2016.”
(DE 21-1 at 1.) On December 17, 2015, the Court issued an order granting the
Warden’s requested extension. (DE 21.)
Under § 4241(b), “the court may order that a psychiatric or psychological examination
of the defendant be conducted, and that a psychiatric or psychological report be filed with the
court, pursuant to the provisions of section 4247(b) and (c).” 18 U.S.C. § 4241. Under § 4242,
[u]pon the filing of a notice, as provided in Rule 12.2 of the Federal Rules of
Criminal Procedure, that the defendant intends to rely on the defense of
insanity, the court, upon motion of the attorney for the Government, shall
order that a psychiatric or psychological examination of the defendant be
conducted, and that a psychiatric or psychological report be filed with the
court, pursuant to the provisions of section 4247(b) and (c).
Id. § 4242. § 4247 provides the time limits under which a defendant may be examined
pursuant to §§ 4241 and 4242. It provides:
[f]or the purposes of an examination pursuant to an order under section 4241,
… the court may commit the person to be examined for a reasonable period,
but not to exceed thirty days, and under section 4242, … for a reasonable
period, but not to exceed forty-five days, to the custody of the Attorney General
for placement in a suitable facility … The director of the facility may apply for
a reasonable extension, but not to exceed fifteen days under section 4241 …
and not to exceed thirty days under section 4242 … upon a showing of good
cause that the additional time is necessary to observe and evaluate the
defendant.
Id. § 4247(b).
Defendant was committed to the custody of the Attorney General under the time
limits permitted by the statute.

The Court ordered that the Defendant undergo

psychological and psychiatric examinations pursuant to §§ 4241 and 4242. (DE 20.) The
Court appropriately ordered that the Defendant be committed to the custody of the
Attorney General for a reasonable period of time not to exceed 45 days. See 18 U.S.C. §
4247(b). Additionally, the extension granted by the Court was appropriate pursuant to §
11

51a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 12 of 28 - Page ID#:
516

4247(b). The Warden of FMC, Lexington requested an extension because there had been
a delay in Defendant’s transport and due to the need to allow clinical staff sufficient time
to conduct a thorough examination. (See DE 21-1.) The Warden’s letter demonstrated
“good cause” for extending the time to observe and evaluate the Defendant pursuant to §
4247(b). Although the Court did not explicitly state that it was granting the Warden’s
requested extension for good cause shown, such is implicit in the Court’s order. (See DE
21.) Accordingly, the thirty-day extension to conduct Defendant’s psychological and
psychiatric examinations was also appropriate. See 18 U.S.C. § 4247(b).
The Court notes that even if there was a violation of the time limits permitted by §
4247(b), the entire time of the competency evaluation—from the filing of Defendant’s
motion for a competency evaluation on November 17, 2015 through the Court’s resolution
of that motion on April 7, 2016—is excludable under §§ 3161(h)(1)(A) and 3161(h)(1)(D).
Id. §§ 3161(h)(1)(A) (Excluded delays include “delay resulting from any proceeding,
including any examinations, to determine the mental competency or physical capacity of
the defendant[.]”); and 3161(h)(1)(D) (“Excluded delays include “delay resulting from any
pretrial motion, from the filing of the motion through the conclusion of the hearing on, or
other prompt disposition of, such motion[.]”). The Sixth Circuit has consistently held that
delays resulting from proceedings to determine a defendant’s competency are properly
excluded from calculation under the Speedy Trial Act. See United States v. Jackson, 179
F. App'x 921, 933–34 (6th Cir. 2006); United States v. Cope, 312 F.3d 757, 777 (6th Cir.
2002); United States v. Murphy, 241 F.3d 447, 455–56 (6th Cir. 2001) (and cases cited
therein). Additionally, the Sixth Circuit, like other circuits, “has refused to use the
[Speedy Trial] Act to craft remedies for alleged violations of 18 U.S.C. § 4247’s time
limitations.” See Jackson, 179 F. App'x at 934 (citing Murphy, 241 F.3d at 456–57 (and

12

52a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 13 of 28 - Page ID#:
517

citations therein); United States v. Taylor, 353 F.3d 868, 870 (10th Cir.2003)). Based on
Sixth Circuit precedent, even if there was a violation of § 4247’s time limitations here,
the relevant time period is still appropriately excluded under the Speedy Trial Act.
In the R&R, the Magistrate—pursuant to the Speedy Trial Act—appropriately
excluded the time taken to conduct the Defendant’s requested psychological and
psychiatric examinations. Additionally, the Court finds that there was no violation of the
time limits for such examinations provided by § 4247. But even if there was such
violation, Defendant is not entitled to any remedy. Accordingly, Defendant’s objection to
the Magistrate’s R&R on this basis is overruled.
b. Applying the Two-Prong Test of Strickland to the Present Case.
Since there appears to be a violation of the Speedy Trial Act, the Court will assume—
without explicitly finding—that counsel’s performance was deficient. See Sylvester v. United
States, 868 F.3d 503, 511 (6th Cir. 2017) (The Sixth Circuit held that because the Speedy
Trial Act was violated and the violations would have led to dismissal of the charges,
defendant’s counsel rendered deficient performance by not bringing those violations to the
attention of the trial or appellate court.). Like in Sylvester, Defendant’s claim for ineffective
assistance of counsel fails, however, because he has not shown that he was prejudiced by any
deficient performance. See id. (“Although we find that Sylvester's counsel rendered deficient
performance in not pursuing the Speedy Trial Act argument, we nevertheless deny
Sylvester's § 2255 motion because Sylvester was not prejudiced by his counsels' inaction.”).
To show prejudice for an ineffective assistance of counsel claim where there has been
a violation of the Speedy Trial Act and counsel’s performance in raising that violation was
deficient, the defendant must demonstrate by a reasonable probability that the deficient
performance changed the result of the proceeding. See Strickland, 466 U.S. at 694. In this

13

53a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 14 of 28 - Page ID#:
518

context, the Defendant must show that “but for his trial [or] appellate attorneys’
unprofessional errors, the district court or [appellate] court on direct appeal would have
ordered dismissal of the prosecution with prejudice based on a Speedy Trial Act Violation.”
Sylvester, 868 F.3d at 511 (quoting McAuliffe v. United States, 514 Fed. Appx. 542, 546 (6th
Cir. 2013) (emphasis added)).
Defendant has not shown that but for his counsel’s deficient performance, this Court
or the Sixth Circuit Court of Appeals would have ordered dismissal of his case with prejudice
based on a violation of the Speedy Trial Act. Under 18 U.S.C. § 3162(a)(2), a district court
has discretion to determine whether to dismiss a case with or without prejudice based on
consideration of various factors. 18 U.S.C. § 3162(a)(2). “The court shall consider, among
others, each of the following factors: the seriousness of the offense; the facts and
circumstances of the case which led to the dismissal; and the impact of a reprosecution on
the administration of this chapter and on the administration of justice.” Id. Defendant does
not discuss any of these factors in his objections to the R&R, however, the Court considers
below the factors listed in § 3162(a)(2) and finds that none of the factors weigh in favor of
dismissal with prejudice.
Regarding the first factor—the seriousness of the offense—the Defendant has been
accused of very serious sex crimes involving his six-year-old daughter. Defendant was
indicted on one count of production of child pornography, one count of distributing child
pornography, and one count of possession of child pornography.

(DE 9.)

Defendant

ultimately admitted in his plea agreement that he produced child pornography, resulting in
a sentence of 300-months imprisonment. (DE 36 and 44.) The length of the sentence alone
evidences the true seriousness of the offenses involved. See United States v. Robinson, 389
F.3d 582, 588 (6th Cir. 2004) (“Given the length of the sentence, the offenses charged against
Robinson were serious and favored dismissal without prejudice.”); United States v. Koerber,
14

54a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 15 of 28 - Page ID#:
519

813 F.3d 1262, 1276 & n. 19 (10th Cir. 2016) (The seriousness of the offense may be assessed
“by considering the length of sentence Congress has adopted[.]”). Considering the seriousness
of the offenses alleged, this factor weighs heavily in favor of dismissal without prejudice.
Regarding the second factor—the facts and circumstances of the case which would
have led to dismissal—the Court considers the culpability of the conduct that led to the delays
in this case. See Koerber, 813 F.3d at 1277. As the Court stated above, there was a thirteenday violation of the Speedy Trial Act that occurred in this case. However, there is absolutely
no evidence of intentional dilatory conduct, bad faith, or a pattern of prosecutorial neglect
resulting in the violation of the Speedy Trial Act. Notably, no delays in this case were caused
by the government. Instead, all the delays in this case—including those excludable under
the Speedy Trial Act—were caused by motions filed on Defendant’s behalf.
The thirteen-day delay of the Speedy Trial Act that occurred here appears to have
been caused by appointment of new counsel and the need to consider how the results of the
Defendant’s psychological and psychiatric examinations affected the trajectory of his case.
On April 7, 2016, the Court held a competency hearing to discuss the results of the
Defendant’s requested competency evaluation. (See DE 30.) Roberts—who was drawn by the
Clerk of Court as counsel for the Defendant on December 29, 2015 while Defendant was
actively undergoing his requested psychological and psychiatric examinations—made his
first courtroom appearance on behalf of the Defendant on that day.2 At that hearing, no party

Defendant asserts in his objections that the R&R incorrectly states that Roberts’ first appearance as
counsel for Defendant was on April 7, 2016, when only thirteen (13) days remained on the speedy trial clock.
Defendant contends that Roberts was appointed on December 29, 2015. (DE 85 at 3.)
2

This objection is immaterial as it a factual distinction that does not affect the Magistrate’s decision or
analysis. Roberts was officially drawn as counsel for the Defendant by the Clerk of Court on December 29,
2015. At the time Roberts was officially drawn as counsel for the Defendant, Defendant was actively
undergoing a psychological and psychiatric evaluation at FMC Lexington. Counsel’s first official, courtroom
appearance on behalf of the Defendant was on April 7, 2016, at the Defendant’s competency hearing. The
Magistrate simply and accurately points out in his R&R that on April 7, 2016, Roberts made his first official,
courtroom appearance on behalf of the Defendant. As the Magistrate correctly points out, the April 7, 2016

15

55a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 16 of 28 - Page ID#:
520

mentioned that Defendant’s speedy trial clock was set to expire in less than two weeks, on
April 20, 2016. See Zender v. United States, 547 U.S. 489, 502 (2006) (Generally, a defendant
has the role of identifying and bringing to the court’s attention a speedy trial violation prior
to trial or entry of a guilty plea to prevent undue defense gamesmanship.).
As the Magistrate stated in his R&R:
Roberts’ choice was to insist on going to trial prior to the deadline’s expiration
which would require him to prepare the entire case for trial in less than two
weeks or accept a later trial date … Clearly, forcing Roberts to fashion a
defense and proceed to trial in a case new to him, having only just met his
client and addressed the competency issue would raise the issue of whether, in
doing so, he would be forced into circumstances resulting in ineffective
assistance of counsel for not seeking a delay or continuance. In addition,
counsel should not be expected to lie in wait those thirteen days for the
deadline to pass and then spring a motion of dismissal on the Court on April
21, 2016. United States v. Miller, No. 05-143, 2018 WL 6308786, *9 (D.D.C.
Dec. 3, 2018) (“trial counsel should understand the court’s frustration at an
attorney agreeing to a date in the future, silently lying in wait for a STA
violation, and then filing a motion to dismiss on the STA violation”).
(DE 77 at 20-21.) The facts and circumstances of this case which would have led to
dismissal of the charges were not intentional or prejudicial to the Defendant. As such, this
factor also weighs heavily in favor of dismissal without prejudice.
Finally, regarding the third factor—the impact of a reprosecution on the
administration of this chapter and on the administration of justice—“’[t]he main
considerations that courts have taken into account ... are whether the defendant suffered
actual prejudice as a result of the delay, and whether the government engaged in
prosecutorial misconduct that must be deterred to ensure compliance with the Act.’”
Sylvester, 868 F.3d at 512 (citing United States v. Howard, 218 F.3d 556, 562 (6th Cir. 2000)).

competency hearing occurred with only 13 days remaining on the speedy trial clock. This distinction,
however, is immaterial as the Magistrate ultimately concluded there was a violation of the Speedy Trial
Act.

16

56a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 17 of 28 - Page ID#:
521

Defendant presents no argument nor evidence supporting that he was prejudiced by
the thirteen-day delay. Additionally, the Defendant presents no argument nor evidence that
the government engaged in prosecutorial misconduct delaying the proceedings. As such, the
Court finds that the third factor also weighs in favor of dismissal without prejudice.
Defendant has failed to show that he suffered any prejudice under Strickland because
he has not established a “reasonable probability that, but for counsel's unprofessional errors,
the result of the proceeding would have been different.” See Strickland, 466 U.S. at 694.
Defendant has not shown that “but for his trial [or] appellate attorneys’ unprofessional
errors, the district court or [appellate] court on direct appeal would have ordered dismissal
of the prosecution with prejudice based on a Speedy Trial Act Violation.” See Sylvester, 868
F.3d at 511 (quoting McAuliffe, 514 Fed. Appx. at 546 (emphasis added)). Instead, the facts
and circumstances here support that the case would have been dismissed without prejudice.
Each of the factors that the Court “shall consider” pursuant to § 3162(a)(2) strongly support
that the case would have been dismissed without prejudice. Accordingly, the Court finds that
Defendant’s claim for ineffective assistance of counsel on this basis must fail.
2. Ineffective Assistance of Counsel Claim as it Relates to Defendant’s
Alleged Violation of his Sixth Amendment Right to a Speedy Trial.
Defendant also asserts ineffective assistance of counsel based on Roberts’ failure to
file a motion to dismiss the indictment due to an alleged violation of his Sixth Amendment
right to a speedy trial. (DE 59-1 at 7.) The Court finds that Defendant’s claim for ineffective
assistance of counsel on this basis must fail because Defendant’s Sixth Amendment right to
a speedy trial was not violated.
The Sixth Amendment to the United States Constitution guarantees that “[i]n all
criminal prosecutions, the accused shall enjoy the right to a speedy and public trial.” U.S.
Const. amend VI. A defendant’s Sixth Amendment right to a speedy trial is distinct from his
17

57a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 18 of 28 - Page ID#:
522

rights under the Speedy Trial Act. See Howard, 218 F.3d at 563-64 (“‘Although the passage
of the [Speedy Trial] Act was in part an attempt by Congress to quantify the Sixth
Amendment right to a speedy trial, the legislation does not purport to be coextensive with
that amendment.’”) (citing United States v. Gonzalez, 671 F.2d 441, 443 (11th Cir. 1982); see
also 18 U.S.C. § 3173 (“No provision of this chapter shall be interpreted as a bar to any claim
of denial of speedy trial as required by amendment VI of the Constitution.”); United States v.
Rice, 746 F.3d 1074, 1081 (D.C. Cir. 2014) (“The absence of a Speedy Trial Act violation does
not ipso facto defeat a Sixth Amendment speedy trial claim.”). A violation of a defendant’s
rights under the Speedy Trial Act may be found where there was no violation of that
defendant’s right to a speedy trial under the Sixth Amendment. See United States v. White,
443 F.3d 582, 588 (7th Cir. 2006) (citing United States v. Koller, 956 F.2d 1408, 1413 (7th Cir.
1992)).

Determining compliance with the Speedy Trial Act is a question of statutory

interpretation, while determining compliance with the Sixth Amendment is guided by the
Supreme Court’s decision in Barker v. Wingo, 407, U.S. 514 (1972). Gonzalez, 671 F.2d at
442-43.
In Barker, the Supreme Court identified four factors that courts should consider in
determining whether a defendant’s Sixth Amendment right to a speedy trial has been
violated: (1) the length of delay, (2) the reason for the delay, (3) the defendant’s assertion of
his right, and (4) prejudice to the defendant. Barker, 407 U.S. at 530. The first factor—length
of delay—is a threshold requirement. United States v. Williams, 753 F.3d 626, 632 (6th Cir.
2014). “[I]f the length of the delay is not uncommonly long, then the judicial examination
ends.” United States v. Bass, 460 F.3d 830, 836 (6th Cir.2006) (internal citation and quotation
marks omitted).

A delay of one year or more is considered presumptively prejudicial,

triggering the examination of the other factors. Id. “‘In calculating the length of the delay,

18

58a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 19 of 28 - Page ID#:
523

only those periods of delay attributable to the government or the court are relevant to the
defendant’s constitutional claim.’” United States v. Williams, 683 F. App'x 376, 383 (6th Cir.
2017) (citing Howard, 218 F.3d at 564); see also United States v. White, 985 F.2d 271, 275
(6th Cir. 1993) (Court excluded the time during which the defendant “expressly participated
in the delay” from the time counted towards a Sixth Amendment violation.) “‘The length of
delay is measured from the earlier of the date of indictment or arrest to the defendant’s trial.’”
Id. (citing Bass, 460 F.3d at 836). “To trigger a speedy trial analysis, an accused must allege
that the interval between accusation and trial has crossed the threshold dividing ordinary
from ‘presumptively prejudicial’ delay….” Id. (citing Doggett v. United States, 505 U.S. 647,
651-52 (1992)).
Defendant has not provided any argument or evidence that the length of delay in his
case was presumptively prejudicial. Unlike the Speedy Trial Act, this calculation begins at
the day of Defendant’s arrest on June 23, 2015. See id. Defendant filed a motion for
rearraignment on May 4, 2016, stopping the clock. (DE 32.) Thus, three hundred sixteen
(316) days passed between Defendant’s arrest on June 23, 2015 and his motion for
rearraignment on May 4, 2016. Although three hundred sixteen (316) days passed between
Defendant’s arrest and his motion for rearraignment, the length of delay is even less
considering that “only those periods of delay attributable to the government or the court are
relevant to the defendant’s [Sixth Amendment] claim.” See Williams, 683 F. App'x at 383.
The Defendant “expressly participated in the delay[s]” of his case when he filed a motion for
continuance and motion for a competency evaluation. After excluding the delays caused by
the Defendant, there are one hundred twenty-four (124) days attributable to the trial process.
Defendant has not shown a delay of more than one year or alleged that the delays “crossed

19

59a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 20 of 28 - Page ID#:
524

the threshold dividing ordinary from ‘presumptively prejudicial’ delay.” See id. (citing
Doggett, 505 U.S. at 651-52). As the Magistrate stated:
If the optimal trial process and normal procedure would take seventy (70) days,
then fifty-four (54) days is the maximum time [Defendant] can claim as a delay.
These same fifty-four (54) days include the time between arrest and indictment
and the time for his second attorney, Roberts, to prepare for trial and/or
negotiate the plea agreement. Therefore, as the time of any delay was less than
one-and-one-half-month this is clearly not a violation of 6th Amendment right
to a speedy trial.
(DE 77 at 24.) Since the length of delay in this case is not “uncommonly long” judicial
examination of Defendant’s Sixth Amendment claim ends. See Bass, 460 F.3d at 836.
In Defendant’s objections, he argues that the Barker factors must be considered in
conjunction with other factors under Moore v. Arizona, 414 U.S. 25 (1973). (DE 85 at 5.)
Defendant states that he was prejudiced because he was “never released to go and try to get
his affairs in order, was notallowed to work a job to support his family, he was subject to the
feawr, worry, and concern that his family was in danger of becoming homeless [sic].”
Defendant further states that he was “isolated, estranged from family and friends, had no
way of ‘assisting his attorney in his defense’, he was denied bail, so he had no way to ensure
his family and finances would be properly taken care of during his absence [sic].” (DE 85 at
5.)
Defendant has not shown any violation of his Sixth Amendment right to a speedy trial,
and thus, he cannot prove his ineffective assistance of counsel claim on this basis. None of
the Barker factors evidence a Sixth Amendment speedy trial violation: (1) Defendant has not
shown that the length of delay was uncommonly long; (2) Defendant was the reason for the
delays in his case and no delays were caused by the government; (3) Defendant did not
promptly, forcefully, or diligently assert his right to a speedy trial and did not even mention
his right to a speedy trial until filing his motion to vacate under 28 U.S.C. § 2255; and (4)

20

60a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 21 of 28 - Page ID#:
525

Defendant has not shown prejudice.3 Defendant urges the Court to consider various alleged
“prejudices” in his objections. However, the “prejudices” cited by the Defendant in his
objections are simply inherent inconveniences of incarceration. Even taking Defendant’s
objections into account, he falls considerably short of showing a Sixth Amendment violation.
Since the facts and circumstances of this case do not show any violation of Defendant’s Sixth
Amendment right to a speedy trial, Defendant cannot show that his counsel was deficient for
failing to raise such violation. As such, his claim for ineffective assistance of counsel on this
basis must fail.
III.

Other Assertion’s in Defendant’s Objections to the Magistrate’s R&R.
In Defendant’s objections to the Magistrate’s R&R he states that he would like the

Court to consider correspondence between Roberts and himself. Defendant then alleges that
at his sentencing, a United States Marshal told him that he “better hope not to file an appeal
in this court” and that if he did “the Marshal knew people in the court” and would make sure
Defendant “never breathed [sic] a free breath of air again.” (DE 85 at 8.) Defendant states
that he told Roberts about this incident and Roberts was unwilling to assist him. He submits
the correspondence as evidence that Roberts was unwilling to help. In the correspondence,
Roberts stated, “if you want the name and badge number [of the Marshal] that was present
at your sentencing, you would have to request that directly from the U.S. Marshalls [sic]. I
am not going to get involved in that issue because it is totally irrelevant and has no adverse
effect on your detention status.” (DE 85-1 at 1.)

Although Defendant cites to various inconveniences and distress caused by incarceration, he has not shown
prejudice. The final factor—prejudice to the defendant—considers the interests which the speedy trial right
was designed to protect. Barker, 407 U.S. at 532. Such interests include preventing oppressive pretrial
incarceration, minimizing anxiety and concern of the accused, and, most significantly, limiting the
possibility that defense will be impaired. Id. Defendant has not alleged oppressive pretrial incarceration,
significant anxiety or concern, or that his defense was somehow impaired. In fact, Defendant ultimately
pleaded guilty to production of child pornography and received a 300-month sentence.
3

21

61a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 22 of 28 - Page ID#:
526

The Court fails to see how this correspondence supports any of Defendant’s claims for
ineffective assistance of counsel.

Moreover, the incident alleged by the Defendant is

completely irrelevant to Roberts’ representation of the Defendant. Accordingly, the Court
will not further consider this correspondence as support for Defendant’s claims of ineffective
assistance of counsel.
IV.

Defendant’s Response to the Court’s Order Denying his Motion to Amend his
28 U.S.C. § 2255 Petition.
Defendant has also filed a response to the Court’s order denying his motion to amend

his § 2255 petition. (DE 102.) On June 7, 2019, the Defendant filed a motion to amend his §
2255 petition based on “newly discovered evidence.” He further requested sixty (60) days to
amend his petition. (DE 90.) On July 18, 2019, the Court denied the motion to amend
because it was completely devoid of information regarding the amendment he sought. (DE
92.) Based on the information provided in the motion, the Court was unable to determine
whether amendment of his § 2255 would be appropriate. Thereafter, Defendant filed a
motion to reconsider. (DE 93.) In that motion, the Defendant stated that the reason he
sought to amend his § 2255 petition was because he discovered that copies of a search warrant
were not filed in the record of his case. He states that he “believes now that his Constitutional
Rights were violated[.]” (DE 93 at 1.) He further stated that he prepared an amendment for
the Court to consider, however, he did not file an amendment at that time. On October 22,
2019, the Defendant tendered an amendment. (DE 94.) In that filing, Defendant articulated
for the first time that he wished to bring a claim for ineffective assistance of counsel against
Gore and Roberts because they never “brought up the fact that the Government never
produced a search warrant.” (DE 94 at 2.)
In response to Defendant’s filings, the Court issued an opinion and order construing
Defendant’s motion to reconsider (DE 93) and the tendered amendment (DE 94) as a renewed
22

62a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 23 of 28 - Page ID#:
527

motion to amend his § 2255 petition. (DE 95 at 1.) The Court ordered that Defendant could
not amend his § 2255 because the new claim was time barred under the statute of limitations
and amendment was not appropriate under Federal Rule of Civil Procedure 15(c). The Court
stated:
In situations where the statute of limitations has run, the Court must
determine whether any amendment to the Defendant’s § 2255 petition relates
back to the claims made in his initial petition. See Fed. R. Civ. P. 15(c). 28
U.S.C. § 2255(f) provides that there is a one-year statute of limitations for
motions under § 2255 that begins running from the latest of (1) the date on
which the judgment of conviction becomes final; (2) the date on which the
impediment to making a motion created by governmental action in violation of
the Constitution or laws of the United States is removed, if the movant was
prevented from making a motion by such governmental action; (3) the date on
which the right asserted was initially recognized by the Supreme Court, if that
right has been newly recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or (4) the date on which the facts
supporting the claim or claims presented could have been discovered through
the exercise of due diligence.
(DE 95 at 2.)

Because more than one year had passed since the judgement of

conviction had become final, the Court found that Defendant’s initial motion to amend,
renewed motion to amend, and tendered amendment could be construed as an invocation of
§ 2255(f)(4).

The Court then determined that it need not decide the applicability of §

2255(f)(4) because even if § 2255(f)(4) was applicable, renewing the one-year statute of
limitations, the new statute of limitations was already expired before Defendant sought an
amendment. The Court explained:
‘[t]he one-year period of limitation commences … when the factual predicate of
a claim could have been discovered through the exercise of due diligence, not
when it actually was discovered.’ Schlueter v. Varner, 384 F.3d 69, 74 (3d Cir.
2004). Under § 2255(f)(4), the “due diligence” required is reasonable diligence
in discovering the factual predicate of the claim. DiCenzi v. Rose, 452 F.3d 465,
470 (6th Cir. 2006). Additionally, the Defendant bears the burden to prove
that he exercised due diligence to start a new statute of limitations. Id. at 471.
Here, Defendant’s proffered amendment contains a new ineffective assistance
of counsel claim based on the Defendant’s discovery that the search warrant
was not filed in the record of his case. Arguably[,] Defendant could have
discovered that the search warrant was not filed in his case as early has his
23

63a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 24 of 28 - Page ID#:
528

initial appearance, although such finding is not necessary here considering the
Defendant actually knew of the factual predicate of his claim over a year before
he filed his initial motion to amend, renewed motion to amend, and tendered
amend[ment]. It appears that the Defendant first asked for a copy of his search
warrant by way of letter filed on March 6, 2018. (DE 57.) On the same date,
the Clerk of the Court informed the Defendant that “search warrants … are
not filed in the record.” (DE 57-2.) Thus, the Defendant had knowledge of the
factual predicate of his claim upon his receipt of the Clerk’s letter. Defendant
did not file a motion to amend his § 2255 until June 7, 2019—well over a year
after the Clerk’s office informed him that the search warrant was not filed in
the record. (See DE 90.) But even then, Defendant did not assert his claim for
ineffective assistance of counsel based on his counsels’ failure to challenge the
existence of the search warrant … It was not until July 30, 2019 that the
Defendant first articulated to the Court that he wished to amend his petition
to add a claim based on the absence of the search warrant. (DE 93 at 1.) And
it was not until October 22, 2019—when the Defendant filed his tendered
amendment—that the Defendant fully articulated that he wished to bring a
claim for ineffective assistance of counsel based on counsels’ failure to
challenge the existence of the search warrant. (See DE 94.) Thus, even if the
one-year statute of limitations renewed upon Defendant’s discovery that the
search warrant was not filed in his case, it would have lapsed well-before he
filed his motion to amend on June 7, 2019, renewed motion to amend on July
30, 2019, and tendered amendment on October 22, 2019.
(DE 95 at 2-4.) Since the statute of limitations for Defendant’s claim had
unequivocally expired, the Court went on to determine whether Defendant’s proffered claim
related back to the claims made in his initial § 2255 petition. See Howard v. United States,
533 F.3d 472, 475 (6th Cir. 2008) (Motions to amend a § 2255 petition after the expiration of
the statute of limitations will be barred “unless the proposed amendment relates back to the
date of the original pleading within the meaning of Rule 15(c)(2).”). The Court found that the
Defendant’s ineffective assistance of counsel claim based on his counsels’ failure to challenge
the search of his residence did not relate back to his original § 2255 petition because it did
not arise from the same conduct, transactions, or occurrences addressed by the claims in his
initial petition. (DE 95 at 4-5.) Instead, the tendered amendment asserted an entirely new
claim for ineffective assistance of counsel based on a different set of facts than those
addressed by his original petition. (See DE 59 and 94.) Accordingly, the Court found that
amendment was not warranted.
24

64a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 25 of 28 - Page ID#:
529

Defendant appealed the Court’s opinion and order and filed a motion for leave to
appeal in forma pauperis.4 The Sixth Circuit promptly dismissed the appeal for lack of
jurisdiction. (DE 101.)
Following the Sixth Circuit’s dismissal, Defendant filed a response to the opinion and
order denying the motion to amend in this Court. (DE 102.) In that filing, the Defendant
appears to assert that the Court inappropriately determined that the claim in his tendered
amendment was time barred under § 2255. Defendant does not contend, however, that his
new claim for ineffective assistance of counsel relates back to his original petition. The Court
will construe the response as a motion to reconsider.
“Courts presented with motions for reconsideration in criminal cases typically
evaluate those motions under the same standards applicable to a civil motion to alter or
amend judgment pursuant to Rule 59(e) of the Federal Rules of Civil Procedure.” Roberts v.
United States, No. 1:06 CR 416, 2011 WL 2982036, at *1 (N.D. Ohio July 21, 2011) (citing
United States v. Holtzhauer, No. 2:05 CR 170, 2006 WL 1582444, at *1 (S.D. Ohio June 8,
2006)). Motions to reconsider are only granted if there was (1) a clear error of law; (2) newly
discovered evidence; (3) an intervening change in controlling law; or (4) a need to prevent
manifest injustice. Intera Corp. v. Henderson, 428 F.3d 605, 620 (6th Cir. 2005).
Here, Defendant’s motion to reconsider is not based on any evidence discovered since
the Court issued the opinion and order denying his motion to amend.

Additionally,

Defendant does not allege an error of law or an intervening change in controlling law.
Instead, Defendant’s response asserts that the Court made a factual error in determining
when he discovered that the search warrant was not filed in his case. (See DE 102 at 1-2.)

The motion to appeal in forma pauperis (DE 98) is not necessary and has since become moot. The motion
is accordingly denied as moot.
4

25

65a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 26 of 28 - Page ID#:
530

Defendant has also not shown any manifest injustice, and accordingly, his motion to
reconsider is denied. Manifest injustice has been defined as “[a]n error in the trial court that
is direct, obvious, and observable.“ Tenn. Protection & Advocacy, Inc. v. Wells, 371 F.3d 342,
348 (6th Cir. 2004) (quoting Black's Law Dictionary 974 (7th ed.1999). “’[A] showing of
manifest injustice requires that there exist a fundamental flaw in the court's decision that
without correction would lead to a result that is both inequitable and not in line with
applicable policy.’” United States v. Jarnigan, No. 3:08-CR-7, 2008 WL 5248172, at *2 (E.D.
Tenn. Dec. 17, 2008) (quoting McDaniel v. Am. Gen. Fin. Servs., Inc., No. 04–2667 B, 2007
WL 2084277, at *2 (W.D. Tenn. July 17, 2007).
Here, Defendant contends that the Court incorrectly determined when he discovered
that the search warrant was not filed in the record of his case. Defendant further states that
he “never asked for a copy of the search warrant until May 20, 2019.” (DE 102 at 2.)
Defendant’s assertions, however, are directly contradicted by the record of this case.
On March 6, 2018, the Court received a letter from the Defendant, which stated: “I
need a copy of my search warrant, public docket, the copy of my miranda rights, and an
unredacted copy of my indictment.” (DE 57.) On the same date, the Clerk of the Court mailed
a letter to the defendant stating that “search warrants … are not filed in the record.” (DE
57-2.)
“The one-year period of limitation commences … when the factual predicate of a claim
could have been discovered through the exercise of due diligence, not when it actually was
discovered.” Schlueter v. Varner, 384 F.3d 69, 74 (3d Cir. 2004). The Court found in its
previous opinion and order that Defendant was given actual, explicit notice of the factual
predicate of his claim when he received the letter from the Clerk of Court stating that “search
warrants … are not filed in the record.” (DE 95 at 3.) Even though Defendant was given
actual, explicit notice upon receipt of the Clerk’s letter, Defendant could have, with due
26

66a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 27 of 28 - Page ID#:
531

diligence, discovered the factual predicate of his claim much earlier on in his case. In fact,
the very first docket entry of this case—the Criminal Complaint and accompanying
affidavit—lays out probable cause and states that “[o]n June 23, 2015, at approximately 2:32
a.m., … a search warrant [was obtained] from a Fayette District Court Judge for the
residence of Cody Lee Herman, 2111 Lansill Road, Building G, Apartment 76, Lexington,
Kentucky 40504.” (DE 1-1 at 9.) The Criminal Complaint and accompanying affidavit were
sworn to by a Federal Bureau of Investigation Task Force Officer before a Magistrate judge.
If Defendant had any concern that there was an inappropriate search in his case, he should
have raised that issue with his trial attorneys. Aside from Defendant’s alleged discovery that
the search warrant was not filed in the record of his case and insinuations that a search
warrant never existed, there is absolutely no indication that an inappropriate search was
conducted in this case.
Defendant’s motion to reconsider is denied because he has not shown a clear error of
law, newly discovered evidence, an intervening change in controlling law, or a need to prevent
manifest injustice.

As the Court found in its previous opinion and order denying the

Defendant’s motion to amend, the statute of limitations has expired on Defendant’s claim for
ineffective assistance of counsel based on his counsels’ failure to challenge the search of his
residence.5 His claim on this basis also does not relate back to any of the claims made in his

Even if Defendant’s claim for ineffective assistance of counsel on this basis was permitted to proceed, it
would be denied because Defendant has not shown that counsel’s performance was deficient. See
Strickland, 466 U.S. at 687. To show deficient performance, the Defendant “must identify specific ‘acts or
omissions [that] were outside the wide range of professionally competent assistance.’” Borch, 47 F.3d at
1167 (quoting Strickland, 466 U.S. at 690)). Other than the fact that the search warrant was not filed in
the record of this case, there is nothing to support that the Defendant had any valid challenge to the search
of his residence. The facts of this case leading to the search of Defendant’s residence, which are laid out in
the affidavit accompanying Criminal Complaint, support that probable cause for a search existed. (See DE
1-1 at 2-9.) As such, Defendant has not shown that his attorney’s performance was deficient. His claim for
ineffective assistance of counsel on this basis is meritless.
5

27

67a

Case: 5:15-cr-00065-KKC-EBA Doc #: 104 Filed: 06/01/20 Page: 28 of 28 - Page ID#:
532

initial § 2255 petition. (See DE 59.) As such, the Court properly denied Defendant’s motion
to amend.
CONCLUSION
Based on the foregoing, the Court HEREBY ORDERS as follows:
(1) United States Magistrate Judge Edward B. Atkins’ Report and Recommendation
(DE 77) is ADOPTED and INCORPORATED herein by reference;
(2) Defendant Cody Herman’s motion to vacate, set aside or correct sentence pursuant
to 28 U.S.C. § 2255 (DE 59) is DENIED;
(3) Defendant’s objections (DE 85) are OVERRULED;
(4) Judgment shall be entered contemporaneously with this Order;
(5) A Certificate of Appealability SHALL NOT ISSUE because the Defendant has
not made a substantial showing of the denial of a Constitutional right. See 28
U.S.C. § 2253(c).
(6) Defendant’s pending motion to proceed in forma pauperis (DE 98) is DENIED AS
MOOT; and
(7) Defendant’s response to the Court’s opinion and order construed as a motion for
reconsideration (DE 102) is DENIED.

Dated June 1, 2020

28

68a

Case: 20-5618

Document: 10-2

Filed: 11/12/2020

Page: 1

No. 20-5618

),/('

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CODY LEE HERMAN,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

1RY
'(%25$+6+817&OHUN

ORDER

Before: GRIFFIN, Circuit Judge.

Cody Lee Herman, a federal prisoner proceeding through counsel, appeals the denial of his
28 U.S.C. § 2255 motion to vacate, set aside, or correct sentence. Herman has filed an application
for a certificate of appealability (“COA”). See Fed. R. App. P. 22(b)(1).
Following an online investigation by an undercover officer during which Herman
expressed that he had nude pictures of his six-year-old daughter to trade, Herman was arrested and
indicted on one count of production of visual depictions of a minor engaged in sexually explicit
conduct using means of interstate commerce (Count 1); distribution of visual depictions of minors
engaged in sexually explicit conduct (Count 2); possession of visual depictions of minors engaged
in sexually explicit conduct that had been transported in interstate commerce (Count 3); and a
forfeiture allegation.

The district court subsequently granted a motion by Herman for a

competency hearing, where Herman was determined competent to proceed with his legal case and
not to have been suffering from symptoms of a chronic or severe mental illness at the time of the
alleged offense.
Two months later, the parties entered a plea agreement that provided that Herman would
plead guilty to Count 1 and the government would dismiss the remaining counts. The agreement
provided that several enhancements to Herman’s base offense level of 32 would apply, including

69a

Case: 20-5618

Document: 10-2

Filed: 11/12/2020

Page: 2

No. 20-5618
-2enhancements for the age of the victim, and the facts that the offense involved sexual conduct and
depictions of violence and that the offender was the victim’s parent. The agreement also provided
that Herman would waive his right to appeal his guilty plea and conviction. Following a hearing,
the district court accepted Herman’s guilty plea to Count 1.
A presentence report calculated Herman’s base offense level as 32. The report also added
all of the enhancements outlined in Herman’s plea agreement, as well as an additional two-level
enhancement for the fact that the offense involved distribution, for a total offense level of 43.
Coupled with a criminal history category of I, Herman’s guidelines range of imprisonment was
calculated as life, but because the statutory maximum term of imprisonment was 30 years (360
months), that became the applicable guidelines range of imprisonment. The report recommended
a sentence of 300 months. Neither party filed objections to the report.
At Herman’s sentencing hearing, he argued that a sentence of fifteen years—the statutory
minimum—would provide just punishment, given that he needed supervision and counseling to
overcome his compulsions. Herman’s counsel explained that Herman had been abused as a child
and had suffered trauma while on military duty in Iraq. The district court ultimately imposed a
300-month term of incarceration, to be followed by a 360-month term of supervised release.
On direct appeal, counsel filed a motion to withdraw pursuant to Anders v. California, 386
U.S. 738, 744 (1967). After an independent review of the record, this court determined that no
good-faith issues existed for appeal, granted counsel’s motion, and affirmed the judgment of the
district court. United States v. Herman, No. 16-6386 (6th Cir. July 20, 2017).
Herman, proceeding pro se, then filed a § 2255 motion to vacate, asserting claims that
attorney Charles Gore was ineffective for (1) failing to have Herman sent for a psychiatric
evaluation, (2) failing to properly file paperwork, and (3) withdrawing without cause. Herman
also alleged that the attorney who replaced Gore after he withdrew, H. Wayne Roberts, was
ineffective for (4) failing to properly file paperwork with the court; (5) failing to bring to the court’s
attention the use of duress during plea negotiations (including threats that Herman’s wife could be
charged); (6) failing to move to dismiss the indictment based on Speedy Trial Act and Sixth
Amendment violations; (7) improperly filing an Anders brief on appeal; (8) failing to argue for a

70a

Case: 20-5618

Document: 10-2

Filed: 11/12/2020

Page: 3

No. 20-5618
-3downward departure under USSG § 5K2.0 based on Herman’s psychological evaluation and his
military service; (9) failing to inform the court at sentencing that he had already been incarcerated
for a year; and (10) failing to argue that he was induced to take pictures of the victim, which
resulted in an enhanced sentence. The government filed a response, and Herman filed a reply.
A magistrate judge reviewed the pleadings and concluded that all of Herman’s claims
lacked merit, finding that the record either refuted Herman’s claims or that he failed to demonstrate
that he suffered prejudice as the result of counsel’s performance. On the issue of a statutory speedy
trial violation in particular, the magistrate judge concluded that a violation of the Speedy Trial Act
occurred, calculating that a plea agreement between the parties was reached thirteen days after the
seventy-day limit (absent excludable delays). However, the magistrate judge concluded that
Herman could not establish that he was prejudiced by counsel’s failure to move to dismiss the
indictment based upon the technical violation because, due to the seriousness of the charges and
the fact that all of the delays were caused by Herman, there was no reasonable probability that the
district court would have dismissed the case with prejudice. . The magistrate judge further found
that there was no violation of Herman’s right to a speedy trial under the Sixth Amendment. The
magistrate judge therefore recommended denying Herman’s motion to vacate.
Herman filed objections but challenged only the magistrate judge’s conclusions regarding
his claim that counsel was ineffective for failing to file a motion to dismiss on the basis of a Speedy
Trial Act and Sixth Amendment violation. The district court overruled Herman’s objections,
adopted the magistrate judge’s report and recommendation, denied Herman’s motion to vacate,
and declined to issue a COA.
Through counsel, Herman now seeks a COA from this court, alleging that he “received
ineffective assistance of counsel during plea and sentencing.” In particular, Herman argues that
counsel performed ineffectively by meeting with Herman for ten minutes before he entered a plea,
advising Herman that his wife could be charged if he did not enter a plea, failing to investigate the
search of Herman’s residence or whether the statements he made to authorities were improperly
obtained, and failing to advise Herman that his right to a speedy trial had been violated and to
move to dismiss the indictment. Herman also asserts that his plea colloquy was incomplete. With

71a

Case: 20-5618

Document: 10-2

Filed: 11/12/2020

Page: 4

No. 20-5618
-4respect to sentencing, Herman argues that counsel was ineffective for failing to request a
mitigating-role adjustment under USSG § 3B1.2 and failing to present “legitimate” arguments that
Herman’s offense was out of character for him and that, at the time of the offense, he was suffering
from diminished mental capacity as the result of depression and Post-Traumatic Stress Disorder.
The government has filed a response in opposition to Herman’s application, noting that—although
Herman’s COA application does not address the issue—he filed objections regarding only
counsel’s performance as it related to his speedy trial claims. The government argues that any
other claims are waived and that exceptional circumstances are not present that would justify
disregarding the waiver.
To obtain a COA, a petitioner must make “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). He may do so by demonstrating that “reasonable
jurists would find the district court’s assessment of the constitutional claims debatable or wrong.”
Miller-El v. Cockrell, 537 U.S. 322, 338 (2003) (citing Slack v. McDaniel, 529 U.S. 473, 484
(2000)). “[A] COA does not require a showing that the appeal will succeed,” id. at 337; it is
sufficient for a petitioner to demonstrate that “the issues presented are adequate to deserve
encouragement to proceed further.” Id. at 327 (citing Slack, 529 U.S. at 484).
As the government argues, a party must file specific objections to a magistrate judge’s
report in order to preserve the right to appeal a subsequent order of the district court adopting and
approving that report. See Howard v. Sec’y of Health & Human Servs., 932 F.2d 505, 508 (6th
Cir. 1991). In this case, Herman objected only to the magistrate judge’s recommendation to deny
his claim that counsel was ineffective for failing to file a motion to dismiss based on violations of
the Speedy Trial Act and the Sixth Amendment. Accordingly, reasonable jurists could not debate
that he forfeited consideration of the remainder of his claims. Carter v. Mitchell, 829 F.3d 455,
472 (6th Cir. 2016).
Moreover, although Herman objected to the magistrate judge’s conclusions that counsel
was not ineffective for failing to move to dismiss the indictment on the basis of a violation of the
Speedy Trial Act and his Sixth Amendment right to a speedy trial, his COA application does not
challenge the district court’s conclusion that his Sixth Amendment right to a speedy trial was not

72a

Case: 20-5618

Document: 10-2

Filed: 11/12/2020

Page: 5

No. 20-5618
-5violated. Because he has not requested certification on that issue, it is also forfeited on appeal.
See Elzy v. United States, 205 F.3d 882, 886 (6th Cir. 2000).
Thus, the only claim properly before the Court is Herman’s claim that his counsel was
ineffective for failing to move to dismiss the indictment based on a Speedy Trial Act violation. As
this Court has previously noted:
[t]he Speedy Trial Act, 18 U.S.C. §§ 3161-74 (1982) requires that the accused be
brought to trial within 70 days from the filing of the information or indictment, or
from the date he first appears before a judicial officer of the court in which the
charge against him is pending, whichever date last occurs.
United States v. Mentz, 840 F.2d 315, 325 (6th Cir. 1988) (footnote omitted) (citing 18 U.S.C.
§ 3161(c)(1)). “The harshness of this strict deadline is mitigated by section 3161(h), which
excludes certain periods from the 70-day calculation.” Id.
The district court concluded that Herman entered his guilty plea thirteen days (absent any
excludable delays) after the Speedy Trial Act’s seventy-day time limit expired. The court further
concluded that Herman could not show prejudice as the result of counsel’s failure to raise the issue
because he could not demonstrate that the court would have ordered dismissal of the charges
against him with prejudice under the applicable factors set forth by the Speedy Trial Act. See
18 U.S.C. § 3162(a)(2). In particular, the court explained that the charges were very serious and
involved Herman’s six-year-old daughter as a victim; the circumstances of the delay were not
caused by bad faith, prosecutorial neglect, or intentional dilatory conduct and, in fact, no delays
were caused by the government; and Herman made did not argue how he was prejudiced by the
thirteen-day delay. Because the statutory factors of the Speedy Trial Act “strongly” supported a
finding that the case would have been dismissed without prejudice, the district court concluded
that Herman could not show prejudice under Strickland to establish the ineffective assistance of
counsel.
In his COA application, Herman argues only that the district court’s analysis of prejudice
was erroneous and that the court should not have simply relied on the fact that the charges would
have been dismissed without prejudice. He claims that the district court should have considered
the fact that he would not have entered the plea agreement if he had known a “line of defense”

73a

Case: 20-5618

Document: 10-2

Filed: 11/12/2020

Page: 6

No. 20-5618
-6existed where the indictment would be dismissed on speedy trial grounds. Accordingly, he asserts
that he suffered prejudice.
Reasonable jurists would not debate the district court’s conclusion as to prejudice. First,
Herman did not argue before the district court that he would not have entered the plea agreement
if he had known the charges against him would be dismissed for a Speedy Trial Act violation.
Instead, he presents this argument for the first time on appeal, which generally precludes
consideration by this court. See United States v. Ellison, 462 F.3d 557, 560 (6th Cir. 2006).
Second, this court has made clear that the prejudice to be demonstrated when counsel fails
to bring a Speedy Trial Act violation to the attention of the court is that the charges would have
been dismissed with prejudice. Sylvester v. United States, 868 F.3d 503, 511 (6th Cir. 2017). In
Sylvester, this court explained that “[w]here the defendant ‘has not demonstrated that, but for his
trial [] attorney[’]s[] unprofessional errors, the district court . . . would have ordered dismissal of
the prosecution with prejudice based on a Speedy Trial Act violation,’ he has not shown that
counsel[’]s[] deficient performance ‘chang[ed] the result of the proceeding.’”

Id. (quoting

McAuliffe v. United States, 514 F. App’x 542, 546 (6th Cir. 2013)).
Herman has not challenged the district court’s conclusion that a weighing of the factors
under the Speedy Trial Act supported a finding that the charges against him would have been
dismissed without prejudice. Absent that showing, he cannot demonstrate that he was prejudiced
by counsel’s failure to move for dismissal on Speedy Trial Act grounds. Because Herman has not
made a substantial showing of the ineffective assistance of counsel, his claim does not deserve
encouragement to proceed further.
For the foregoing reasons, Herman’s application for a COA is DENIED.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

74a

